         The Special Master’s Determinations
      for Executive Compensation of Companies
    Receiving Exceptional Assistance Under TARP




12-001                                    January 23, 2012
                    Office of the special inspector general
                         For the Troubled Asset Relief Program
                                   1801 L Street, NW, 4th Floor
                                     Washington, D.C. 20220

 




                                          January 23, 2012

MEMORANDUM FOR: Mr. Timothy Massad – Assistant Secretary for
                Financial Stability, Department of the Treasury

                            Ms. Patricia Geoghegan – Acting Special Master,
                            Office of the Special Master for TARP Executive Compensation,
                            Department of the Treasury
                             
FROM:                       Ms. Christy L. Romero – Deputy Special Inspector General
                            for the Troubled Asset Relief Program

SUBJECT:                    The Special Master’s Determinations for Executive Compensation of
                            Companies Receiving Exceptional Assistance Under the Troubled
                            Asset Relief Program (SIGTARP 12-001)


We are providing this report for your information and use. It discusses the Special Master’s
Determinations for Executive Compensation of Companies Receiving Exceptional Assistance Under the
Troubled Asset Relief Program.
 
The Office of the Special Inspector General for the Troubled Asset Relief Program conducted this
evaluation (engagement code 017) under the authority of Public Law 110-343, as amended, which also
incorporates the duties and responsibilities of inspectors general under the Inspector General Act of
1978, as amended.

We considered comments from the Department of the Treasury when preparing the report. Treasury’s
comments are addressed in the report, where applicable, and a copy of Treasury’s response is included
in Appendix G.

We appreciate the courtesies extended to our staff. For additional information on this report, please
contact Mr. Kurt Hyde, Deputy Special Inspector General for Audit and Evaluation
(Kurt.Hyde@treasury.gov / 202-622-4633), or Ms. Kimberley A. Caprio, Assistant Deputy Special
Inspector General for Audit and Evaluation (Kim.Caprio@treasury.gov / 202-927-8978).




12-001                                                                              January 23, 2012
The Special Master’s Determinations for Executive Compensation of
Companies Receiving Exceptional Assistance Under TARP
 

                                                          this evaluation of the process designed by OSM to
Summary                                                   set pay packages and OSM’s decisions on
When Congress created the Troubled Asset Relief           compensation for the Top 25 employees at the
Program (“TARP”) in 2008, it included some limits on      companies that received exceptional assistance
compensation for employees at companies that              under TARP. Under this evaluation, SIGTARP
received TARP assistance. After several major             assessed the criteria used by OSM to evaluate and
TARP recipients paid employees billions of dollars in     make determinations on each company’s executive
bonuses for 2008, the President, the U.S.                 compensation and whether OSM consistently applied
Department of the Treasury (“Treasury”), and              criteria to all seven companies.
Congress expressed frustration. The President
announced the capping at $500,000 of annual               What SIGTARP Found
salaries at companies that had received “exceptional      SIGTARP found that the Special Master could not
assistance” under TARP, with any further                  effectively rein in excessive compensation at the
compensation to be paid in stock that could not be        seven companies because he was under the
cashed in until the company paid back TARP. After         constraint that his most important goal was to get the
the President’s announcement, Congress passed             companies to repay TARP. Although generally he
legislation under which Treasury created the Office of    limited cash compensation and made some
the Special Master for TARP Executive                     reductions in pay, the Special Master still approved
Compensation (“OSM”). Kenneth R. Feinberg served          total compensation packages in the millions. Special
as the Special Master and was succeeded by Patricia       Master Feinberg said that the companies pressured
Geoghegan.                                                him to let the companies pay executives enough to
                                                          keep them from quitting, and that Treasury officials
The seven companies that received assistance that         pressured him to let the companies pay executives
was “exceptional” ‒ because of the amount and the         enough to keep the companies competitive and on
nature of their bailouts ‒ stood out from the more        track to repay TARP funds. Given OSM’s overriding
than 700 financial institutions in the Capital Purchase   goal, the seven companies had significant leverage
Program. Those seven companies were American              over OSM by proposing and negotiating for excessive
International Group, Inc. (“AIG”), Bank of America        pay packages based on historical pay, warning
Corporation (“Bank of America”), Citigroup Inc.           Special Master Feinberg that if he did not provide
(“Citigroup”), Chrysler Financial Services Americas       competitive pay packages, top officials would leave
LLC (“Chrysler Financial”), Chrysler Holding LLC          and go elsewhere.
(“Chrysler”), General Motors Corporation (“GM”), and
Ally Financial Inc.(“Ally”), formerly GMAC, Inc. The      In proposing high pay packages based on historical
Special Master’s authority was narrowly limited to        pay prior to their bailout, the TARP companies failed
setting pay for the Top 25 most highly paid               to take into account the exceptional situation they
employees at these companies, and approving               had gotten themselves into that necessitated
compensation structures, rather than individual pay,      taxpayer bailout. Rather than view their
for the next 75 most highly compensated employees.        compensation through the lens of partial Government
The Special Master worked under six principles            ownership, the companies argued that their proposed
developed by Treasury: (1) avoiding incentives to         pay packages were necessary to retain or attract
take risks; (2) keeping the company competitive and       employees who were crucial to the company. For
retaining and recruiting employees who would              example, Ally officials pushed for high pay, despite
contribute to the company’s success and its ability to    knowing that Feinberg was concerned that a majority
repay TARP; (3) allocating compensation between           of the company’s Top 25 employees were part of the
salary and incentives; (4) basing pay on performance      problem that resulted in the need for a bailout. In
metrics; (5) setting compensation consistent with         2009, AIG proposed cash raises for several of its
similar peers at similarly situated companies; and (6)    Top 25 employees and the ability to sell stock salary
setting compensation that reflects an employee’s          immediately.
contribution to the company’s value.
                                                          Under conflicting principles and pressures, despite
The Office of the Special Inspector General for the       reducing some pay, the Special Master approved
Troubled Asset Relief Program (“SIGTARP”) initiated       multimillion-dollar compensation packages for many

12-001                                                                                  January 23, 2012
The Special Master’s Determinations for Executive Compensation of
Companies Receiving Exceptional Assistance Under TARP
 

of the Top 25 employees, but tried to shift them away   did not want it to go belly up. Treasury told him that
from large cash salaries and toward stock. OSM          paying salaries and grandfathered awards in stock
approved pay packages worth $5 million or more          rather than cash would jeopardize AIG. Feinberg
over the 2009 to 2011 period for 49 individuals. OSM    said that Treasury officials felt those amounts were
set pay using what Feinberg called “prescriptions”      relatively small compared to the Government’s
that he developed, including that total compensation    exposure in AIG. However, Feinberg said that no
would be set at the 50th percentile for similarly       one trumped his decisions.
situated employees, and that cash salaries should
not exceed $500,000, except for good cause.             In 2009, OSM approved total compensation of cash
Although OSM developed general prescriptions,           and stock of more than $1 million each for five AIG
OSM did not have any established criteria at the        employees including a $10.5 million pay package for
beginning of the process for applying those             AIG’s new CEO that included a $3 million cash
prescriptions.                                          salary. OSM approved compensation ranging from
                                                        $4.3 million to $7.1 million each for four AIG
Some companies pushed back on OSM by claiming           employees who that year were also scheduled to
that their compensation should be higher than the       receive cash retention awards of up to $2.4 million.
50th percentile. The companies’ beliefs may relate to   OSM was tough on employees of AIG Financial
what has been called the “Lake Wobegon Effect,”         Products (“AIGFP”), the unit whose losses
named after radio host Garrison Keillor’s fictional     contributed to the need for Government intervention.
hometown where “all the children are above              For five AIGFP employees who were scheduled to
average.” Companies also proposed that their            receive retention awards of up to approximately
employees be paid cash salaries higher than             $4.7 million, OSM froze their salaries at 2007 levels
$500,000, claiming that the employees were crucial.     and gave them no stock. In 2010, OSM also cut
For 10 employees in 2009, and 22 employees in           AIG’s proposed salaries, but compared to 2009,
2010 and 2011, GM, Chrysler Financial, Ally, and        approved much larger compensation packages for
AIG convinced OSM to approve cash salaries greater      AIG’s Top 25 employees, despite the fact that 18 of
than $500,000. With the exception of Bank of            these employees were scheduled to receive
America’s retiring CEO, the Special Master approved     significant retention awards and other payments. In
cash salaries in excess of $500,000 for the CEO of      2010, OSM approved 21 of AIG’s 22 employees to
each company who asked for a higher salary, and         receive between $1 million and $7.6 million, with 17
approved millions of dollars in CEO stock               of those pay packages exceeding $3 million. OSM
compensation.                                           approved cash salaries of more than $500,000 for
                                                        five employees, and cash salaries ranging from
AIG’s proposed compensation for its Top 25              $442,874 to $500,000 for 12 employees. OSM
employees did not reflect the unprecedented nature      approved all but three of AIG’s Top 25 employees to
of AIG’s taxpayer-funded bailout and the fact that      receive stock salary ranging from $1.3 million to
taxpayers owned a majority of AIG. The proposed         $5.1 million each. OSM generally approved these
AIG compensation was excessive. In 2009, AIG            same pay packages for 2011 for AIG, which included
wanted cash salary raises ranging from 20% to 129%      the CEO’s same compensation as in earlier years,
for one group of employees and from 84% to 550%         compensation packages of $8 million each for two
for another group. AIG proposed high cash salaries,     employees, compensation packages of $7 million
even though some of these employees would also be       each for two employees, and compensation
paid significant retention payments. Feinberg told      packages of $5 million to $6.3 million each for seven
SIGTARP that AIG was anti-stock salary and wanted       employees.
to pay employees in cash. Feinberg told SIGTARP
that in his 2009 discussions with AIG, AIG believed     OSM’s pay determinations are not likely to have a
that its common stock was essentially worthless.        long lasting impact at the seven TARP exceptional
Feinberg told the Congressional Oversight Panel         assistance companies or other companies. OSM’s
(“COP”) that AIG common stock “wasn’t worth             decisions had little effect on Citigroup and Bank of
enough to appropriately compensate top officials.”      America, which exited TARP, in part to escape OSM
Feinberg told SIGTARP that he was pressured by          compensation restrictions. Once out of TARP,
other senior Treasury officials and was told to be      salaries and bonuses climbed. Today, only AIG, GM,
careful, that AIG owed a fortune, and that Treasury     and Ally remain subject to OSM’s review. CEOs at


12-001                                                                                        January 23, 2012
The Special Master’s Determinations for Executive Compensation of
Companies Receiving Exceptional Assistance Under TARP
 

AIG and GM told SIGTARP that they would not
maintain OSM’s practices once their company exits
TARP. OSM has had little ability to influence
compensation practices at other companies outside
of the seven. Feinberg told SIGTARP that the long-
term impact will likely come from regulators.

While historically the Government has not been
involved in pay decisions at private companies, one
lesson of this financial crisis is that regulators should
take an active role in monitoring and regulating
factors that could contribute to another financial
crisis. Treasury Secretary Timothy F. Geithner
testified before COP that executive compensation
played a material role in causing the crisis because it
encouraged excessive risk taking.

As a nation, we are not out of the woods because
many former TARP companies remain as
systemically important financial institutions (“SIFIs”).
These companies have a responsibility to reduce risk
taking that could trigger systemic consequences,
including excessive cash compensation and other
compensation not tied to long-term performance.
The Dodd-Frank Wall Street Reform and Consumer
Protection Act requires regulations on executive
compensation and other regulations for SIFIs that
may force these companies to change their
compensation practices. The regulators’ strength
and leadership in the area of executive compensation
are critical. Taxpayers are looking to the regulators
to protect them so that history does not repeat itself.

What SIGTARP Recommended
In this report, SIGTARP recommended that the Office
of the Special Master of TARP Executive
Compensation: substantiate each exception to the
$500,000 pay limit that is requested and whether the
requests demonstrate or fail to demonstrate “good
cause;” better document its use of market data in its
calculations; and develop more robust policies,
procedures, or guidelines to help ensure that its pay
determination process and its decisions are
evenhanded.

In commenting on a draft of this report, OSM agreed
with the first two recommendations and with the
importance of the third recommendation, stating that
it will focus on how it can further develop policies,
procedures, and guidelines. A fuller discussion of
OSM’s response can be found in the Management
Comments section of this report.


12-001                                                       January 23, 2012
   The Special Master’s Determinations for Executive Compensation of
   Companies Receiving Exceptional Assistance Under TARP
    


   Table of Contents
Introduction .................................................................................................................................................... 1
Background .................................................................................................................................................... 3
   Congress Passed Legislation Limiting TARP Executive Compensation ................................................... 4
   Creation of the Office of the Special Master.............................................................................................. 5
OSM’s Executive Compensation Determination Process .............................................................................. 8
   OSM Determined Pay for the Top 25 Employees in a Three-Step Methodology ..................................... 9
   Getting Out from Under the Special Master’s Purview Was a Factor for Repayment of TARP
       Exceptional Assistance by Bank of America and Citigroup ................................................................. 11
   SIGTARP Found that OSM’s Methodology and Criteria Were Not Documented Until After the
       Fact, and that Documentation Lacked Detail ........................................................................................ 12
Analysis of the Special Master’s Executive Compensation Determinations ............................................... 13
   The Special Master Allowed Some Employees To Be Paid Cash Salaries of more than $500,000 ........ 16
   The Special Master Consistently Approved Cash Salaries in Excess of $500,000 for the CEO of
       Each Company Who Asked, with the Exception of Bank of America’s CEO, Who Had
       Announced His Retirement ................................................................................................................... 18
   The Special Master Was Inconsistent in Approving Cash Salaries in Excess of $500,000 ..................... 21
   With Limited Justifications, OSM Approved Cash Salaries of more than $500,000 for
       Employees of AIG, GM, Chrysler Financial, and Ally ........................................................................ 22
   The Special Master’s Criteria of Using the 50th Percentile Pay Level for Similarly Situated
       Employees and the Selection of Peer Groups Were Not Based on Substantive Due Diligence ........... 23
   SIGTARP Was Unable To Analyze Whether the Special Master Consistently Applied the 50th
       Percentile Criteria Because OSM Did Not Maintain Adequate Documentation .................................. 25
AIG Pushed for Excessive Raises in Cash Salaries for Its Top 25 Employees and Pushed Against
   Pay in AIG Stock ...................................................................................................................................... 26
   Before the Creation of OSM, AIG Faced Congressional and Public Anger After Paying Millions
       of Dollars in Retention Awards to AIGFP Employees Post-Bailout .................................................... 26



   12-001                                                                                                                         January 23, 2012
   The Special Master’s Determinations for Executive Compensation of
   Companies Receiving Exceptional Assistance Under TARP
    

   AIG Employees Declined Request To Restructure Upcoming Retention Awards Under Pre-
       Recovery Act Employment Contracts .................................................................................................. 28
   In 2009, AIG Proposed Excessive Cash Raises for Its Top 25 Employees and Proposed Treating
       Heads of AIG Subsidiaries as CEOs ..................................................................................................... 29
   The Special Master Set Salaries for AIG Top 25 Employees in 2009 ..................................................... 30
   AIG Received Consideration for a Different Form of Stock Salary for 2009 ......................................... 32
   AIG and Treasury Officials Created a Phantom (Basket) Stock for Six AIG Employees ....................... 33
   The Special Master Changed the Form of Stock Compensation for Six AIG Employees from
       Phantom Stock to AIG Common Stock ................................................................................................ 36
   In 2010, AIG Proposed Cash Salary Increases and Again Pushed Back Against Executive Pay in
       AIG Common Stock, Requesting Instead an Alternative Form of Stock Salary .................................. 37
   In 2011, AIG Proposed Cash Salaries in Excess of $500,000 for Five Employees and Proposed
       Compensation in the Form of AIG Common Stock ............................................................................. 40
Impact of the Special Master’s Determinations on the Exceptional Assistance Recipients ........................ 42
   Maintaining the Special Master’s Framework ......................................................................................... 42
   Companies’ Ability To Recruit and Retain .............................................................................................. 43
   OSM’s Limited Effect on Citigroup and Bank of America ..................................................................... 45
   Beyond TARP: Dodd-Frank Act’s Executive Compensation Provisions ................................................ 46
Conclusions and Recommendations............................................................................................................. 47
Recommendations ........................................................................................................................................ 53
Management Comments ............................................................................................................................... 54
Appendix A – Scope and Methodology ....................................................................................................... 57
Appendix B – Principles of Treasury’s June 2009 IFR ............................................................................... 59
Appendix C – TARP Expenditures to Seven Companies That Received Exceptional Assistance .............. 61
Appendix D – AIG’s Government Assistance and Recapitalization Plan To Exit TARP ........................... 62
Appendix E – Acronyms and Abbreviations................................................................................................ 64
Appendix F – Evaluation Team Members ................................................................................................... 65
Appendix G – Agency Comments ............................................................................................................... 66




   12-001                                                                                                                            January 23, 2012
The Special Master’s Determinations for Executive Compensation of
Companies Receiving Exceptional Assistance Under TARP
 

This report has cleared SIGTARP’s Office of General Counsel disclosure review process and
information determined to be restricted from public release has been redacted from this report.
Redaction Legend: (b)(4) – 5 U.S.C. § 552(b)(4), Trade Secrets, Commercial or Financial Information.




12-001                                                                                January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                               1




                      Introduction
                      In the creation of the Troubled Asset Relief Program (“TARP”) in October 2008,
                      Congress provided limits on compensation of employees at companies that
                      received TARP assistance. In early 2009, after several major TARP recipients
                      paid employees billions of dollars in bonuses, the President, the U.S. Department
                      of the Treasury (“Treasury”), and Congress expressed frustration. Treasury
                      Secretary Timothy F. Geithner said that executive compensation played a material
                      role in causing the financial crisis because it encouraged excessive risk taking.
                      The President announced that top executives at companies that had received
                      exceptional assistance 1 under TARP would have cash salaries capped at $500,000
                      with any further compensation paid in stock that could not be cashed in until the
                      company paid back and exited TARP. The President also announced prohibitions
                      on excessive severance packages and limitations on perquisites. Shortly
                      thereafter, Congress passed economic stimulus legislation, which was amended in
                      the Senate after the President’s announcement to add more strict limitations on
                      compensation for TARP recipients. On June 10, 2009, Treasury issued rules to
                      implement the legislation, and those rules created the Office of the Special Master
                      for TARP Executive Compensation (“OSM”).2 Kenneth R. Feinberg served as
                      the Special Master until he resigned on September 10, 2010, and was succeeded
                      by Patricia Geoghegan as Acting Special Master.

                      The Special Master’s authority to set pay was narrowly focused on executive
                      compensation at seven companies that received exceptional assistance under
                      TARP.3 These seven companies stood out from the more than 700 financial
                      institutions that received TARP funds under the Capital Purchase Program. The
                      amount and nature of their bailouts were considered “exceptional.” OSM’s
                      authority is primarily limited to setting pay for the five senior executive officers
                      (“SEOs”) and the next 20 most highly compensated employees (together known
                      as the “Top 25”) at each of the seven exceptional assistance recipients, and
                      approving compensation structures (rather than setting individual pay packages)
                      for certain executive officers and the next 75 most highly compensated employees
                      (“Top 26-100”).4 Special Master Feinberg testified to Congress that he had
                      “no legal authority to make final determinations pertaining to executive
                      compensation for any companies other than these seven,” and that “even as to
1
  Companies that participated in the following programs are classified as receiving exceptional assistance under TARP:
   Bank of America and Citigroup, participants in the Targeted Investment Program (“TIP”); AIG, the only participant in
   the Systemically Significant Failing Institutions Program; and GM, Chrysler, and their financing companies, Ally
   Financial (formerly GMAC), and Chrysler Financial, participants in the Automotive Industry Financing Program.
2
  The economic stimulus legislation did not contain a $500,000 cash salary limitation, nor did the Treasury rules.
3
  Appendix C provides a summary of the TARP assistance provided to those companies.
4
  OSM was also tasked with conducting “look-back” reviews of bonuses, retention awards, and other compensation paid
  to the Top 25 employees at TARP recipients before February 17, 2009, and, where contrary to the public interest, “seek
  to” negotiate reimbursements to the Government. OSM found that no awards were contrary to the public interest and
  therefore did not “seek to” negotiate reimbursement of any of the awards.


12-001                                                                                                    January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                  2




                        those seven, my role in regulating pay was limited to the Top 25 as a mandatory
                        matter.”

                        This report focuses on OSM’s determinations on pay for the Top 25 at the
                        following seven companies:

                           American International Group, Inc. (“AIG”)
                           Bank of America Corporation (“Bank of America”)
                           Citigroup Inc. (“Citigroup”)
                           Chrysler Financial Services Americas LLC (“Chrysler Financial”)
                           Chrysler Holding LLC (“Chrysler”)
                           General Motors Corporation (“GM”)
                           Ally Financial Inc. (“Ally”), formerly GMAC, Inc.

                        Of those seven, three are still in TARP and under OSM:
                         AIG, with 77% Government ownership;
                         GM, with 32% Government ownership; and
                         Ally, with 74% Government ownership.5

                        The Office of the Special Inspector General for the Troubled Asset Relief
                        Program (“SIGTARP”) initiated an evaluation of the process designed by OSM to
                        set pay packages and OSM’s decisions on compensation for the Top 25 at the
                        companies that received exceptional assistance under TARP. Under this
                        evaluation, SIGTARP assessed the criteria used by OSM to evaluate and make
                        determinations on each company’s executive compensation and whether OSM
                        consistently applied criteria for the determinations made in 2009, 2010, and 2011.

                        SIGTARP conducted this evaluation between November 2009 and
                        December 2011, and in accordance with the “Quality Standards for
                        Inspection and Evaluation” established by the Council of the Inspectors
                        General on Integrity and Efficiency. For a discussion of the evaluation’s
                        scope and methodology, see Appendix A.




5
    Percentages for the three companies are as of December 31, 2011.


12-001                                                                                         January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                            3




                      Background
                      In creating TARP through the Emergency Economic Stabilization Act of 2008
                      (“EESA”), as amended, Congress explicitly provided limits on executive
                      compensation at TARP recipient companies and authorized the Secretary of the
                      Treasury to set standards for executive compensation. EESA’s restrictions have
                      changed over time by regulations, amendments, and notices.6

                      In early 2009, the press reported that several TARP recipients paid out billions of
                      dollars in bonuses to executives and employees.7 The bonuses were criticized by
                      the Comptroller of New York. On January 28, 2009, the Comptroller of
                      New York announced that for 2008, Wall Street firms (including TARP
                      recipients) paid $18.4 billion in bonuses to employees working in New York City
                      and said, “There needs to be greater transparency and accountability in the use of
                      these [TARP] funds…taxpayers ought to know if these funds were used to buy
                      corporate jets.” The press reported that the Comptroller urged the Administration
                      to examine the issue.8 The President called these bonuses “shameful.”9

                      On February 4, 2009, the President announced a $500,000 cap on salaries for top
                      executives of TARP companies that received exceptional assistance, with any
                      further compensation paid in stock that could not be cashed out until TARP was
                      repaid. The President also announced that the companies would have to disclose
                      publicly and justify all of the perks bestowed upon executives, and that the U.S.
                      Government (“Government”) was putting a stop to massive severance packages.
                      The President also said:

                               “In order to restore trust, we’ve got to make certain that taxpayer
                               funds are not subsidizing excessive compensation packages on
                               Wall Street. We all need to take responsibility. And this includes
                               executives at major financial firms who turned to the American
                               people, hat in hand, when they were in trouble, even as they paid
                               themselves customary lavish bonuses. As I said last week, this is
                               the height of irresponsibility. It’s shameful. And that’s exactly the

6
  On October 14, 2008, Treasury announced TARP executive compensation rules focused on limiting
  compensation tied to risk, prohibiting golden parachutes, and providing that under certain conditions bonuses
  may have to be repaid. It also limited companies from taking a tax deduction for salaries to senior executive
  officers in excess of $500,000.
7
  White, Ben, “What Red Ink? Wall Street Paid Hefty Bonuses,” The New York Times, 01/28/2009,
  http://www.nytimes.com/2009/01/29/business/29bonus.html, accessed 12/06/2011.
8
  White, Ben, “What Red Ink? Wall Street Paid Hefty Bonuses.” See footnote 7 above for further details.
9
  In late July 2009, New York Attorney General Andrew Cuomo reported the original nine TARP recipients
  paid approximately $32.61 billion in 2008 bonuses: Citigroup paid $5.33 billion, Bank of America paid
  $3.30 billion, Merrill Lynch paid $3.60 billion, Goldman Sachs paid $4.82 billion, JPMorgan Chase paid
  $8.69 billion, Morgan Stanley paid $4.48 billion, Wells Fargo & Co. paid $977.50 million, Bank of New York
  Mellon paid $945 million, and State Street Corp. paid $469.97 million.


12-001                                                                                                    January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                                     4




                                  kind of disregard of the costs and consequences of their actions
                                  that brought about this crisis…what gets people upset – and
                                  rightfully so – are executives being rewarded for failure, especially
                                  when those rewards are subsidized by U.S. taxpayers, many of
                                  whom are having a tough time themselves.”

                         That same day, Treasury issued guidance proposing various limitations on
                         compensation arrangements.10


                         Congress Passed Legislation Limiting TARP Executive
                         Compensation

                         Congress expressed its frustration through legislation. At the time of the
                         President’s announcement, Congress was considering an economic stimulus bill
                         that had passed in the U.S. House of Representatives. The bill as passed did not
                         contain TARP executive compensation restrictions. On February 2, 2009, the
                         Senate began consideration of the bill, which became the American Recovery and
                         Reinvestment Act of 2009 (the “Recovery Act”). On February 4, 2009, Senator
                         Ron Wyden and Senator Olympia Snowe offered an amendment to the Recovery
                         Act bill requiring TARP recipients to repay cash bonuses in excess of $100,000.
                         In his statement on the Senate floor, Senator Wyden stated, “Last week,
                         Americans were horrified to hear the news that Citigroup and other companies
                         receiving taxpayer money from the Troubled Asset Relief Program were paying
                         their employees billions and billions of dollars in bonuses.” Although the
                         Wyden-Snowe amendment did not make it into the final Act, Senator Christopher
                         Dodd proposed an amendment that he described as applying stronger restrictions
                         on executive compensation for TARP recipients. Senator Dodd, detailing the
                         restrictions on the Senate floor, stated, “This will encourage the companies to use
                         the TARP funds for the purposes they were intended and assure the American
                         taxpayers that their funds are being used properly.”

                         The Recovery Act, enacted on February 17, 2009, amended EESA. The Recovery
                         Act restricts bonuses for one to 25 employees, among other actions, depending on
                         the amount of TARP investment, unless paid in restricted stock that did not
                         exceed one-third of total compensation. The Recovery Act’s bonus prohibition
                         excludes payments required to be paid pursuant to written employment contracts
                         executed on or before February 11, 2009. The Recovery Act prohibits golden

10
     The proposed guidance applied to all TARP companies; it proposed more strict executive compensation rules for
     TARP companies that received exceptional assistance. For the seven exceptional assistance TARP companies, the
     guidance proposed a $500,000 cash salary cap and bonuses only in restricted stock; enhanced clawback of bonus
     provisions; prohibited golden parachutes for the top five senior officers; and limited golden parachutes for the next
     25 executives to one year’s salary. The guidance also proposed that each company develop a luxury expenditure
     policy for perquisites such as airplane use, office renovations, parties, and conferences.


12-001                                                                                                          January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                          5




                     parachutes for senior executive officers and the next five most highly
                     compensated employees (“Top 10”), requires TARP companies to have “say on
                     pay” through a non-binding shareholder vote on compensation, and provides that
                     Top 25 employees pay back bonuses if based on criteria later proven to be
                     materially inaccurate.

                     In March 2009, Congress and the public were angered that AIG had paid
                     $168 million in retention awards to around 400 employees of its Financial
                     Products unit (“AIGFP”).11 The press reported that people were picketing the
                     homes of AIG executives and that some employees were threatened.12 Congress
                     held hearings on proposals to tax the retention awards, and AIG asked the
                     employees to return voluntarily 50% of the awards.

                     On June 10, 2009, Treasury announced the Interim Final Rule (“IFR”), which
                     implemented the Recovery Act and consolidated all TARP executive
                     compensation restrictions into a single rule. The IFR also prohibited employees
                     from fully transferring restricted stock while the company is in TARP. The
                     compensation restrictions generally applied to a TARP recipient’s SEOs and next
                     most highly compensated employees.


                     Creation of the Office of the Special Master

                     Through the IFR, Treasury created OSM, headed by the Special Master, but gave
                     it limited scope. OSM’s powers were generally limited to setting pay packages
                     for the Top 25 employees and to reviewing compensation structures for the
                     Top 26-100 employees of the seven companies that received exceptional
                     assistance under TARP. In accordance with the IFR, under a “safe harbor,” OSM
                     approval was not required for proposed annual compensation structures of no
                     more than $500,000 (apart from long-term restricted stock, as defined in the IFR)
                     for employees in the Top 26-100. The Special Master must determine whether
                     compensation structures and payments are inconsistent with EESA or are
                     otherwise contrary to the public interest. In doing so, the Special Master must
                     apply six principles and use discretion to determine the appropriate weight or
                     relevance of those principles depending on the facts and circumstances or when
                     principles conflict. The circumstances may include the role of the employee, the
                     situation of the TARP recipient within the marketplace, and the amount and type
                     of TARP assistance. In summary, the IFR principles say:

11
   For further details on AIG’s executive compensation structure, see SIGTARP’s report “Extent of Federal Agencies’
   Oversight of AIG Compensation Varied, and Important Challenges Remain,” issued on October 14, 2009.
12
   One example is “Protestors visit lavish homes of AIG execs,” MSNBC, 03/21/2009,
   http://www.msnbc.msn.com/id/29815906/ns/business-stocks_and_economy/t/protesters-visit-lavish-homes-aig-execs/,
   accessed 12/10/2011.



12-001                                                                                                January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                              6




                     Risk – the compensation structure should avoid incentives to take unnecessary
                      or excessive risks that could threaten the value of the TARP recipient;

                     Taxpayer Return – the compensation amount and structure should reflect the
                      need for the TARP recipient to remain a competitive enterprise, to retain and
                      recruit talented employees who will contribute to the TARP recipient’s
                      success and, ultimately, its ability to repay TARP obligations;

                     Appropriate Allocation – the compensation structure should appropriately
                      allocate compensation between components such as salary and short-term and
                      long-term incentives;

                     Performance-Based Compensation – an appropriate portion of the
                      compensation should be based on performance metrics over a relevant period;

                     Comparable Structures and Payments – the compensation amount and
                      structure should be consistent with those for persons in similar positions or
                      roles “at similar entities that are similarly situated;” and

                     Employee Contribution to TARP Recipient Value – the compensation
                      structure and amount should reflect the current or prospective contributions of
                      an employee to the value of the TARP recipient.

                  Special Master Feinberg told SIGTARP that these criteria are inherently
                  inconsistent because of conflicting goals and company-specific circumstances.
                  He explained that the criteria intended for institutions to remain competitive and
                  to promote employee retention but do not allow for compensation structures
                  similar to those of some market participants because they are deemed to be
                  excessive and not performance based over the long term. On October 21, 2010,
                  Feinberg testified before the Congressional Oversight Panel (“COP”) that the
                  clear direction given to him was that the most important goal was to get these
                  seven companies to repay TARP. He also testified, “Congress felt that the single
                  most important thing I could do is get those seven companies to repay the
                  taxpayer…Secretary Geithner made that clear. Congress made that clear. The
                  Administration made that clear. And we succeeded, with three of those
                  companies already repaying.”

                  Feinberg told SIGTARP that political perception “very much” played a role in his
                  decisions. He said he was mindful of Congress’ intent, the oversight that
                  Congress would conduct, and that U.S. House of Representatives Committee on
                  Financial Services Chairman Barney Frank and U.S. Senate Banking, Housing,
                  and Urban Affairs Committee Chairman Christopher Dodd had spoken frequently
                  on the Congressional goals and intent.




12-001                                                                                     January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                                7




                        Feinberg said he was pressured by TARP companies and Treasury officials. He
                        told SIGTARP that TARP companies placed pressure on him to let the companies
                        pay executives enough to keep them from quitting, and that Treasury officials
                        placed pressure on him to let the companies pay executives enough to ensure
                        companies would remain competitive and be able to repay TARP funds. Feinberg
                        testified to the House Committee on Financial Services, “The tension between
                        reining in excessive compensation and allowing necessary compensation is, of
                        course, a very real difficulty that I have faced and continue to face in making
                        individual compensation determinations.” Feinberg told SIGTARP that every day
                        he was pressured to soften his stance and that Government officials reminded him
                        that the companies had large obligations to repay the taxpayers. On
                        October 21, 2010, Feinberg told COP, “…we heard over and over again that if we
                        didn’t provide competitive pay packages, those top officials would leave and go
                        elsewhere…they might even go to China. Everybody was going to go to China to
                        work if these companies lost these officials. They’re still there. Eighty-five
                        percent of these specific individuals whose pay by statute we regulated are still
                        there.”

                        For one company (AIG), Feinberg told SIGTARP that he was pressured by other
                        Treasury officials, specifically the Office of Financial Stability (“OFS”), which
                        administers TARP, that he needed to be careful, that AIG owed Treasury a
                        fortune and Treasury did not want it to go belly up.13 Despite this pressure,
                        Feinberg told SIGTARP that no one trumped his decisions.

                        OSM was aware of media and public attention, although Feinberg told COP that
                        there was a relative lack of interest from the public when it came to GM and
                        Chrysler – almost all of the media and public attention was on Bank of America,
                        Citigroup, and AIG. Part of that had to do with how much higher compensation
                        was at Wall Street companies, relative to GM and Chrysler, which he described as
                        like Earth and Mars. He said “… I think … the top three people of the 25 at
                        Citigroup got more compensation before we arrived than all 25 people at GM,
                        which was, to me, a little bit astounding.”




13
     AIG owed the Government $69.8 billion at that time. For details regarding the Government’s investment in AIG and
     the firm’s recapitalization plan, see Appendix D.


12-001                                                                                                   January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                                                                8




                       OSM’s Executive Compensation Determination
                       Process
                       The companies determined their Top 25 employees per IFR specifications that
                       this group must include the five publicly disclosed SEOs (chief executive officer
                       (“CEO”), chief financial officer (“CFO”), and the next three most highly
                       compensated employees), and the next 20 most highly compensated employees.
                       Because the IFR includes in the Top 25 any of those employees who were
                       employed on the first day of the year but who left before OSM issued its
                       determination on pay packages, some of the companies under OSM had fewer
                       than 25 employees subject to OSM’s pay package determinations. This
                       circumstance most affected AIG and Bank of America, each of which had only 13
                       employees out of the Top 25 remaining for OSM’s 2009 determinations (see
                       Table 1).

                       TABLE 1

                        NUMBER OF TOP 25 EMPLOYEES WHO RECEIVED PROSPECTIVE PAY DETERMINATIONS
                                                           2009                             2010                                    2011
                       Company                         (Based on 2008                   (Based on 2009                          (Based on 2010
                                                       Compensation)                    Compensation)                           Compensation)
                       AIG                                   13                                    23                                  23
                       Bank of America                       13                                   N/A                                 N/A
                       Citigroup                             21                                   N/A                                 N/A
                       Chrysler                              25                                    24                                  25*
                       Chrysler Financial                    22                                    25                                 N/A
                       GM                                    20                                    25                                  25
                       Ally                                  23                                    24                                  25
                       Total                                137                                  121                                   98

                       Note: *Chrysler lost its designation as an exceptional assistance recipient on July 21, 2011, when Treasury sold its remaining
                             stake in the company to Fiat. However, that transaction occurred after the Special Master issued Chrysler a
                             determination letter on April 1, 2011, covering 25 employees.
                       Source: SIGTARP review of OSM determinations.




                       Annually, the companies proposed pay packages for the Top 25 employees. In
                       August 2009, the seven companies proposed 2009 pay levels for the Top 25
                       employees. On October 28, 2010, Feinberg testified to the U.S. House of
                       Representatives Committee on Oversight and Government Reform that six of the
                       seven companies’ compensation proposal submissions would result in payments
                       contrary to the Public Interest Standard, and should, therefore, be rejected.14
                       Special Master Feinberg testified that the companies requested excessive cash
                       salaries and bonuses; stock compensation that could be immediately or quickly

14
     The seventh company was Chrysler Financial.


12-001                                                                                                                                January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                             9




                      redeemed; “perks” such as private airplane transportation, country club dues, and
                      golf outings; excessive levels of severance and retirement benefits; and
                      compensation that did not take into account future cash awards already scheduled
                      to be paid based on contracts that existed prior to current compensation
                      regulations.

                      OSM had many discussions with the companies regarding their proposed pay
                      packages. However, one company stood out. Feinberg told SIGTARP that in
                      2009, 80% of his headaches came from AIG. AIG was the only one of the seven
                      where other senior Treasury officials intervened in OSM’s process. AIG was also
                      the company that had received the biggest Government bailout and, as of
                      January 14, 2011, the Government owned approximately 92% of the company.


                      OSM Determined Pay for the Top 25 Employees in a Three-Step
                      Methodology

                      Using the principles laid out in the IFR and what Feinberg called “prescriptions”
                      developed by OSM, OSM established a three-step methodology to set pay, which
                      included cash salary, stock salary, and long-term restricted stock, for the Top 25
                      employees at each of the seven TARP exceptional assistance recipients.

                      First, OSM sets total compensation on the OSM prescription that it should
                      generally not exceed the 50th percentile of total compensation for similarly
                      situated employees. The first step in the formula was to determine each
                      employee’s total compensation by basing it on the 50th percentile compensation
                      level for the employee’s position, scope, and responsibilities relative to what their
                      peers in comparable positions are earning. To determine the 50th percentile,
                      OSM uses the U.S. Mercer Benchmark Database and Equilar’s Total
                      Compensation Report15 to determine whether the market data submitted by the
                      seven TARP companies were reasonable.16

                      Second, OSM sets cash salaries using an OSM prescription that generally
                      salaries should not exceed $500,000 per year, except for good cause shown.
                      OSM determines cash salary by assessing the market data, the prior years’
                      compensation, the importance of the position and individual, the risk that an

15
   Equilar’s Total Compensation Report contains data for the top five positions disclosed publicly. Mercer’s
   Benchmark Database provides compensation data categorically, by asset class, industry, and types of
   positions.
16
   In 2009, OSM also relied on the advice of two academic experts, Lucian A. Bebchuk, the William J.
   Friedman & Alicia Townsend Friedman Professor of Law, Economics, and Finance, and Director of the
   Program on Corporate Governance, Harvard Law School; and Kevin J. Murphy, the Kenneth L. Trefftzs
   Chair in Finance in the Department of Finance and Business Economics at the USC Marshall School,
   professor of business and law in the USC Law School, and professor of economics in the USC Economics
   Department.


12-001                                                                                                     January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                         10




                  employee would leave, and any unique circumstances. While OSM staff told
                  SIGTARP that the $500,000 cash salary limit was based partially on
                  President Obama’s statement that salaries should be limited to $500,000, the
                  Special Master said that he was not influenced by the President’s statements on
                  salary. The decision to limit cash salaries to $500,000 and to increase the
                  proportion of compensation in the form of stock, Feinberg said, was his decision
                  to strike a balance between reducing excessive risk and providing enough
                  compensation to keep employees’ “skin in the game.” In testimony before COP,
                  Feinberg stated that OSM came up with the $500,000 figure based on the
                  packages submitted by companies, empirical evidence, and a sense of what
                  Congress and Treasury intended in the statute and regulations. In testimony
                  before the House Committee on Financial Services, Feinberg said that he made
                  exceptions to that limit for “good cause,” and he told SIGTARP that those
                  exceptions varied by company.

                  OSM officials told SIGTARP that in some instances, the $500,000 cash salary cap
                  resulted in an increase in base salary for some employees. For example, OSM
                  restructured pay for some Citigroup employees who were paid cash salaries of
                  approximately $200,000 and received substantial cash bonuses. OSM officials
                  told SIGTARP that they felt that if they limited those employees to the same
                  salary with the bonus paid only in stock that was not available for a number of
                  years, the employees would not be appropriately compensated and would leave.
                  OSM officials told SIGTARP that to ensure employee retention, they made some
                  concessions on cash salary, but weighted pay more heavily on long-term
                  performance through stock salary. In other instances, OSM adjusted an
                  employee’s salary to just below $500,000. GM officials told SIGTARP that OSM
                  would adjust some employees’ salaries so that they cascaded to just under
                  $500,000, such as $495,000, $490,000, $485,000, and $480,000.

                  Third, OSM determines how much of the remaining compensation would be
                  paid in stock salary with a value dependent on the company’s future success
                  and long-term restricted stock. OSM determined the amount of stock salary
                  and long-term restricted stock by deducting the cash salary (generally up to
                  $500,000) from total compensation. The Recovery Act limited long-term
                  restricted stock to one-third of the employee’s total pay. Accordingly, OSM
                  calculated the amount of long-term restricted stock, and the remainder of the
                  compensation package was stock salary.

                  In testimony to the House Committee on Oversight and Government Reform, the
                  Special Master said that he used stock salary to encourage senior executives to
                  remain at the companies to maximize their benefit from the profitability of the
                  company. Although the stock vests each pay cycle, it is generally redeemable
                  only in three equal annual installments, beginning on the second anniversary of
                  the grant date.



12-001                                                                                  January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                             11




                      To tie individual compensation to long-term company success, OSM used long-
                      term restricted stock contingent on the employee achieving specific performance
                      criteria.17 Long-term restricted stock does not fully vest until the repayment of
                      TARP financial assistance.18 OSM officials told SIGTARP that companies were
                      very hesitant to pay long-term restricted stock because there was no certainty that
                      some of the companies would ever be free of TARP.

                      After using the three-step process to determine pay packages for the Top 25, OSM
                      communicated those packages in annual determination letters sent to the
                      companies and published online on October 22, 2009, March 23, 2010, and
                      April 1, 2011.19 The 2009 determinations by the Special Master set the process
                      that OSM would use in the future for the 2010 and 2011 determinations. Four of
                      the companies have repaid TARP’s exceptional assistance.20 Today only AIG,
                      GM, and Ally remain under OSM’s exceptional assistance rules.


                      Getting Out from Under the Special Master’s Purview Was a
                      Factor for Repayment of TARP Exceptional Assistance by
                      Bank of America and Citigroup

                      In December 2009, Bank of America and Citigroup exited TARP’s Targeted
                      Investment Program (“TIP”), one of the exceptional assistance programs, citing a
                      desire to be outside the jurisdiction of OSM. SIGTARP’s September 29, 2011,
                      audit report “Exiting TARP: Repayment by the Largest Financial Institutions,”
                      reported that Citigroup’s CEO told SIGTARP that the desire to escape
                      management compensation restrictions was a factor motivating Citigroup’s desire
                      to exit TARP. The report also says that Sheila Bair, then-Chairman of the Federal

17
   The Special Master said that each company’s independent compensation committee had to have an active role
   in both the design of incentives and the review and measurement of performance metrics.
18
   For the stock to vest, employees must provide services to the TARP recipient for at least two years after the
   date the stock is granted. The stock can become transferable, or payable in the case of restricted stock units
   in 25% installments for each 25% installment of TARP funds repaid.
19
   OSM also issued supplemental determinations in response to pay proposals for new CEOs for AIG, Ally,
   Chrysler, and GM, a new CFO for GM, and a new AIG Chief Risk Officer. Two supplemental
   determinations were in response to official reconsideration requests – one submitted by AIG in relation to its
   2009 Top 25 determination and the other submitted by GM in relation to its 2010 determination over the
   structure of compensation of GM’s Top 26-100 employees. OSM issued a supplemental determination to
   GM in response to GM’s request for approval to replace long-term restricted stock grants with stock salary
   for 2009 for two of its Top 25 employees. On December 20, 2010, OSM issued a supplemental
   determination to Chrysler in relation to two employees who decided not to retire and who were seeking
   grants of stock salary and long-term restricted stock. All determinations and supplemental determinations are
   available online at www.financialstability.gov.
20
   Bank of America and Citigroup repaid TARP’s exceptional assistance in December 2009. In May 2010,
   Chrysler Financial repaid TARP. In July 2011, Chrysler exited TARP when Treasury sold its remaining
   ownership interest in Chrysler to Fiat.


12-001                                                                                                      January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                             12




                  Deposit Insurance Corporation, worried that Citigroup’s request to terminate its
                  asset guarantee, another form of assistance it received under TARP, was “all
                  about compensation.”

                  Two of Bank of America’s former executives also told SIGTARP that executive
                  compensation was an important factor in the firm’s decision to repay TARP. One
                  of the executives told SIGTARP that executive compensation was a major factor
                  behind the firm’s repayment decision and that the company did everything
                  possible to get out from under the executive compensation rules. Special Master
                  Feinberg testified before COP that one of the things he learned as Special Master
                  was the desire of these companies to get out from under Government regulation.
                  Specifically he was referring to Citigroup and Bank of America wanting to get out
                  from under TARP and OSM’s restrictions.


                  SIGTARP Found that OSM’s Methodology and Criteria Were Not
                  Documented Until After the Fact, and that Documentation Lacked
                  Detail

                  Although OSM created general “prescriptions,” OSM did not at the beginning of
                  the process have pre-established criteria and methodology for applying those
                  prescriptions. OSM’s methodology and criteria for applying its prescriptions
                  were not established until after October 22, 2009, when OSM issued its first set of
                  determinations and based them on the process that had just taken place. OSM’s
                  methodology and criteria were explained in several different documents – the
                  institution-specific determination letters, a “fact sheet” summarizing some key
                  steps and decisions, and a three-page document issued several months later – but
                  the documents did not completely lay out OSM’s process, methodology, and
                  criteria. For example, OSM’s methodology document was incomplete in that
                  OSM did not establish meaningful criteria for granting exceptions to prescriptions
                  such as when an employee could be paid more than $500,000 in cash salary.
                  With the methodology incomplete and lacking meaningful criteria, the seven
                  companies faced surprises and unpredictability in OSM’s process. Some
                  companies told SIGTARP that OSM’s criteria were constantly evolving, and it
                  was not clear how the criteria would be applied. Some companies told SIGTARP
                  that they were not aware that there would be a $500,000 salary cap or that they
                  could request exceptions to it. Some companies told SIGTARP that they were not
                  aware of certain criteria until hours or days before OSM issued its first
                  determination letters. The methodology does not address how OSM determined
                  the peer group for the 50th percentile of total compensation for similarly situated
                  employees, nor does it explain how OSM arrived at the 50th percentile as a
                  reasonable limit to set. In addition, the document lacks meaningful criteria for
                  establishing the amount of stock salary.




12-001                                                                                   January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                        13




                       Analysis of the Special Master’s Executive
                       Compensation Determinations
                       This section analyzes the decisions made by the Special Master in setting pay
                       packages for the Top 25 employees from 2009-2011. It also discusses OSM’s
                       application of the $500,000 cash salary cap and its uses of stock salary and
                       market data for targeting pay at the 50th percentile.

                       There were variations among pay packages set by the Special Master that were
                       largely a product of conflicting goals and differences in the companies under
                       OSM’s jurisdiction. OSM faced difficulty in setting pay packages that would rein
                       in excessive executive compensation while still attracting and retaining key
                       employees in order to meet his number one goal of ensuring that the companies
                       repaid taxpayers’ TARP investment. Special Master Feinberg explained to
                       SIGTARP that EESA, as amended by the Recovery Act, is inconsistent because it
                       intends for institutions to remain competitive and promote employee retention,
                       but it does not allow certain compensation structures similar to other companies
                       because they are deemed excessive and not performance based over the long term.

                       In addition to the conflicting goals under which he operated, Special Master
                       Feinberg told SIGTARP that he applied criteria with a “healthy dose of
                       discretion” for company-specific circumstances that caused results to vary among
                       companies. The total compensation each company’s group of Top 25 employees
                       received, as illustrated in Figure 1 on the following page, differed significantly.
                       These differences may be due to the number of Top 25 employees in each
                       company,21 variation in the companies’ sizes and industries, and because some
                       companies had unique circumstances. For example, Chrysler Financial was
                       liquidating and had no stock to offer employees, and GM had stock but was
                       emerging from bankruptcy while preparing for an initial public offering.




21
     AIG and Bank of America had only 13 employees remaining from their Top 25 groups in 2009 when the
     October 22, 2009 determinations were issued. Other companies that year had between 20 and 25 employees
     in their Top 25 groups at that time. In 2010 and 2011, Top 25 groups varied, but to a lesser extent.


12-001                                                                                                 January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                                                    14



                  FIGURE 1
                  2009-2011 TOTAL DIRECT COMPENSATION APPROVED BY OSM FOR TOP 25
                  EMPLOYEES AT EXCEPTIONAL ASSISTANCE TARP COMPANIES


                         ($, in millions)
                                              $0       $20        $40       $60         $80        $100     $120      $140

                                       2009
                                 Citigroup                                                                       21
                            Ally Financial                                                   23
                         Bank of America                                                     13
                                       AIG                        13
                          General Motors                     20
                          Chrysler Group               25
                       Chrysler Financial             22                                                                       Cash Salary


                                       2010                                                                                    Stock Salary
                            Ally Financial                                              24
                                                                                                                               Long-Term Restricted
                                       AIG                                                             23                      Stock
                          General Motors                                             25
                          Chrysler Group                                                                                     The # of Top 25
                                                        24
                                                                                                                             employees in each firm is
                       Chrysler Financial               25                                                                   listed next to the horizontal
                                                                                                                             bar.

                                       2011
                            Ally Financial                                                        25
                                       AIG                                                                  23
                          General Motors                                           25
                          Chrysler Group                    25



                  Note: This chart depicts all the pay packages approved by the Special Master over the 2009 to 2011 period. Total direct
                        compensation includes cash salary, stock salary, and long-term restricted stock as determined by OSM.
                  Source: SIGTARP analysis of the Special Master’s determinations.



                  OSM approved sizable pay packages. According to OSM, it approved pay
                  packages worth $5 million or more over the 2009 to 2011 period for 49
                  individuals. Year after year, OSM approved for AIG CEO Robert Benmosche the
                  largest compensation package of all approved by OSM – $10.5 million in total
                  pay, including the largest cash salary – $3 million. OSM approved other sizable
                  pay packages. In 2009, OSM approved a Bank of America employee to receive
                  $9.8 million in total pay, consisting of $500,000 in cash salary and the remaining
                  $9.3 million in stock salary. That same year, OSM approved a pay package for
                  Ally CEO Michael Carpenter of $9.5 million, with $950,000 in cash salary,
                  $5.4 million in stock salary, and $3.1 million in long-term restricted stock. In
                  2010, OSM approved GM’s CEO Ed Whitacre to earn the most compensation
                  after Benmosche. The compensation package approved for the CEO of GM in
                  2010 was $9 million in total pay, consisting of $1.7 million in cash salary,


12-001                                                                                                                         January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                            15




                        $5.3 million in stock salary, and $2 million in long-term restricted stock. The
                        same pay package was approved for Dan Akerson, who succeeded Whitacre as
                        CEO of GM. In 2011, OSM approved for Ally’s CEO Carpenter and GM’s CEO
                        Akerson the second- and third-largest compensation packages. Carpenter
                        received $9.5 million in total pay, consisting of $8 million in stock salary and
                        $1.5 million in long-term restricted stock, and Akerson’s pay package remained
                        unchanged at $9 million as set in the prior year.

                        OSM also approved, for employees who were paid $5 million or more in total
                        pay, significant compensation in stock. In 2009, OSM approved total stock
                        compensation for those employees, including both stock salary and long-term
                        restricted stock, in amounts ranging from $4.2 million to $9.3 million. In 2010,
                        OSM approved these employees to receive between $4.3 million and $8 million,22
                        and in 2011, OSM approved them to receive between $4.3 million and
                        $9.5 million in total stock pay. Figure 2 on the following page shows OSM-
                        approved pay packages by size.




22
     The $8 million compensation package was for Ally CEO Carpenter. Carpenter also received $1.5 million in
     incentive restricted stock units as part of an aggregate $12.5 million approved by OSM to be allocated by
     Ally’s compensation committee to Top 25 employees.


12-001                                                                                                     January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                                                16



          FIGURE 2
          OSM-APPROVED PAY PACKAGES ANNUALLY BY SIZE



                                        OSM-Approved Pay Packages for Top 25 Employees

                                              0            10               20         30           40            50           60       70
                2009 Pay Packages = 137

                                 $0 - <$1m                                                  69
                               $1m - <$3m                    21
                               $3m - <$5m               16
                              $5m - <$10m                          30
                             $10m or more         1

                2010 Pay Packages = 121

                                 $0 - <$1m                                        50
                               $1m - <$3m                                    43
                               $3m - <$5m             13
                              $5m - <$10m             14
                             $10m or more         1

                 2011 Pay Packages = 98

                                 $0 - <$1m                        27
                               $1m - <$3m                              32
                               $3m - <$5m                 20
                              $5m - <$10m                18
                             $10m or more         1




                  Note: The number of Top 25 employees who received a pay package in that range is listed in the horizontal bar. This
                        chart depicts all the pay packages approved by the Special Master over the 2009 to 2011 period.
                  Source: SIGTARP analysis of the Special Master’s determinations.




                  The Special Master Allowed Some Employees To Be Paid
                  Cash Salaries of more than $500,000

                  The Special Master allowed employees to be paid more than $500,000 in cash
                  salary. The Special Master’s prescriptions require a showing of “good cause” for
                  an employee to be paid more than $500,000 in cash. In 2009, the Special Master
                  approved 10 employees at TARP exceptional assistance companies to be paid
                  cash salaries of more than $500,000. In 2010 and 2011, OSM allowed 22
                  employees to be paid cash salaries of more than $500,000. Figure 3 shows the
                  number of employees approved by the Special Master to be paid more than
                  $500,000 in each year.


12-001                                                                                                                        January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                                                                                                                    17




   FIGURE 3
   EMPLOYEES AT EXCEPTIONAL ASSISTANCE TARP RECIPIENTS APPROVED BY THE
   SPECIAL MASTER TO BE PAID CASH SALARIES IN EXCESS OF $500,000



                                                                    OSM-Approved Salaries in Excess of $500,000




                                    2009
                                    Employees with cash salary more than $500,000 = 10


                                    2010
                                    Employees with cash salary more than $500K = 22


                                    2011
                                    Employees with cash salary more than $500K = 22

                                       OSM-Approved Salaries in Excess of $500,000


                                    N/A means that the company exited the exceptional assistance
                                    program.



                                                                                                                                              11

                                                                                                                                  9
                                                                                                                                                                 8

                                                                                                                                                                                                      6
                5         5
                                                                                                                                                        4
                                                                                                                                                                                   3
                                                                                                                         2
      1
                                             N/A    N/A                   N/A       N/A                                                                                  N/A

         2009   2010      2011       2009    2010       2011      2009     2010       2011      2009    2010   2011      2009         2010       2011   2009      2010   2011      2009    2010       2011   

                    AIG               Bank of America                 Citigroup                 Chrysler Group               General Motors                 Chrysler Financial             Ally

                Note: This chart depicts all of the approved cash salaries of more than $500,000 over the 2009-2011 period. The number of employees
                      approved to receive cash salaries in excess of $500,000 is listed in the vertical bars.
                Sources: SIGTARP analysis of companies’ proposed cash-based salaries and the Special Master’s determinations.




                                    In 2009, the Special Master approved cash salaries of more than $500,000 for
                                    AIG’s CEO, two GM employees, three Ally employees, and four Chrysler
                                    Financial employees. Bank of America, Citigroup, and Chrysler requested but did
                                    not receive relief from the $500,000 cash salary cap. In 2010, the Special Master
                                    approved cash salaries of more than $500,000 for five AIG employees, eight
                                    Chrysler Financial employees, and nine GM employees. Chrysler did not request
                                    any salaries over $500,000 and the Special Master that year denied Ally’s request
                                    for relief for five employees. In 2011, the Special Master approved cash salaries
                                    of more than $500,000 for five AIG employees, six Ally employees, and 11 GM
                                    employees. Chrysler did not request any salaries over $500,000.




12-001                                                                                                                                                                                 January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                           18




                  The Special Master Consistently Approved Cash Salaries in Excess
                  of $500,000 for the CEO of Each Company Who Asked, with the
                  Exception of Bank of America’s CEO, Who Had Announced His
                  Retirement

                  The Special Master approved cash salaries in excess of $500,000 for CEOs of
                  institutions that had received exceptional assistance under TARP. Every
                  institution that requested relief from the $500,000 cash salary cap for its CEO
                  received OSM approval, except for Bank of America’s CEO, who had announced
                  his retirement. The Special Master did not approve any compensation for Bank of
                  America’s CEO because the CEO would receive a substantial retirement package.
                  Citigroup CEO Vikram Pandit voluntarily agreed in a Congressional hearing to
                  take a $1 salary with no bonus until Citigroup returned to profitability. Fiat paid
                  Chrysler CEO Sergio Marchionne approximately €4.8 million in total
                  compensation because he was also the CEO of Fiat S.p.A. The CEO’s pay from
                  Fiat was outside of OSM’s jurisdiction, but OSM approved $600,000 in stock
                  salary for the CEO’s role as a Director. SIGTARP found that for seven CEOs, the
                  Special Master approved cash salaries of more than $500,000, with some of them
                  receiving these salaries for multiple years, as illustrated in Table 2 on the
                  following page.




12-001                                                                                   January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                                                                  19



TABLE 2
PAY PACKAGES APPROVED BY THE SPECIAL MASTER OF CEOS OF TARP RECIPIENTS RECEIVING
EXCEPTIONAL ASSISTANCE
                                                     2009                                         2010                                   2011
        AIG                                      Benmosche                                  Benmosche                             Benmosche
Cash Salary                                        $3,000,000                                $3,000,000                             $3,000,000
Stock Salary                                        4,000,000                                 4,000,000                               7,500,000
Long-Term Restricted Stock                          3,500,000                                 3,500,000                                         0
Total Direct Compensation                        $10,500,000                               $10,500,000                             $10,500,000
                                                                                                  b               b
        GM                                        Henderson                            Whitacre        Akerson                         Akerson
Cash Salary                                          $950,000                      $1,700,000         $1,700,000                    $1,700,000
Stock Salary                                        2,421,667                        5,300,000         5,300,000                      5,300,000
Long-Term Restricted Stock                          1,815,000                        2,000,000        2,000,000                       2,000,000
Total Direct Compensation                          $5,186,667                       $9,000,000        $9,000,000                    $9,000,000
                                                                    c                                   c
        Ally                             de Molina      Carpenter                          Carpenter                                 Carpenter
Cash Salary                                $850,000        $950,000                                   $0                                      $0
Stock Salary                               4,491,667      5,415,000                         8,000,000                                 8,000,000
Long-Term Restricted Stock                 2,816,667      3,135,000                                    0                              1,500,000
Total Direct Compensation                $8,158,334 $9,500,000                             $8,000,000                               $9,500,000
                                                            a                                           a
        Chrysler                             Marchionne                                  Marchionne                                Marchionne
Cash Salary                                               $0                                          $0                                      $0
Stock Salary                                      $600,000                                             0                                        0
Long-Term Restricted Stock                                  0                                          0                                        0
Total Direct Compensation                         $600,000                                            $0                                      $0
                                                                                                                                                d
        Chrysler Financial                          Gilman                                      Gilman
Cash Salary                                     $1,500,000                                 $1,650,000
Stock Salary                                                0                                          0
Long-Term Restricted Stock                                  0                                          0
Total Direct Compensation                       $1,500,000                                 $1,650,000
                                                                                                        d                                       d
       Bank of America                               Lewis
Cash Salary                                               $0
Stock Salary                                                0
Long-Term Restricted Stock                                  0
Total Direct Compensation                                 $0
                                                                                                        d                                       d
        Citigroup                                    Pandit
Cash Salary                                               $1
Stock Salary                                                0
Long-Term Restricted Stock                                  0
Total Direct Compensation                                 $1
a Chrysler CEO Sergio Marchionne received approximately €4.8 million in 2009 and approximately €3.5 million in 2010 from Fiat S.p.A.
b In 2010, there was only one pay package totaling $9 million for both GM CEOs Whitacre and Akerson.
c According to OSM, Ally CEO Carpenter did not receive $9.5 million in 2009 because his 2009 compensation was prorated. In 2010, Ally’s compensation
committee received OSM approval to allocate $12.5 million in long-term restricted stock to Top 25 employees. Carpenter received $1.5 million of that total.
d Bank of America and Citigroup were not subject to OSM after 2009. Chrysler Financial was not subject to OSM after 2010.
Sources: SIGTARP analysis of OSM documentation and the Special Master’s determinations.




12-001                                                                                                                                     January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                        20




                     In 2009, 2010, and 2011, the Special Master approved a $3 million cash salary for
                     AIG CEO Benmosche. According to OSM, Benmosche was a particularly crucial
                     hire at a time when AIG faced a multitude of challenges and he was brought in to
                     lead the company that had received the greatest amount of Government
                     assistance.23 OSM also told SIGTARP that Benmosche’s compensation package
                     was reasonable relative to the market. On October 2, 2009, in a supplemental
                     determination, OSM set Benmosche’s total compensation package at
                     $10.5 million, consisting of $3 million in cash salary, $4 million in stock salary
                     that could not be sold for at least five years, and an annual incentive award of
                     $3.5 million in long-term restricted stock units. His actual incentive award was
                     prorated to reflect the portion of the year he was employed by AIG, and thus he
                     received approximately $1.4 million of the $3.5 million.24

                     In 2009, the Special Master approved a cash salary of $950,000 for GM’s interim
                     CEO, Fritz Henderson, as well as $2.4 million in stock salary and $1.8 million in
                     long-term restricted stock. OSM told SIGTARP that this was necessary to align
                     Henderson’s salary with other auto industry CEOs. In 2010 and 2011, the Special
                     Master approved for GM’s outgoing CEO Whitacre25 and incoming CEO
                     Akerson26 total pay packages of $9 million, consisting of cash salaries of
                     $1.7 million cash salaries, stock salaries of $5.3 million, and long-term restricted
                     stock of $2 million. The Special Master justified Whitacre’s salary on the basis
                     that he was an outside hire who came out of retirement, while OSM determined
                     that Akerson would receive the same annualized compensation as the outgoing
                     CEO.

                     In 2009, the Special Master approved a cash salary of $1.5 million for Chrysler
                     Financial Chairman and CEO Thomas F. Gilman. OSM said that he, along with
                     other Chrysler Financial executives, filled an essential role during the company’s
                     wind-down. In 2010, OSM approved a $150,000 increase in Gilman’s cash salary
                     to $1.65 million because stock was not appropriate for employees of a company
                     that would be liquidated.

                     In 2009, the Special Master approved a cash salary of $850,000 for Ally’s
                     outgoing CEO, Al de Molina, who had announced his resignation, as well as
                     $4.5 million in stock salary and $2.8 million in long-term restricted stock.27 For
                     Ally’s then-new CEO, Carpenter, OSM approved a $950,000 cash salary,
                     $5.4 million in stock salary, and $3.1 million in long-term restricted stock. OSM
                     told SIGTARP that it approved these salaries because de Molina needed to be

23
   As of December 31, 2011, Treasury’s equity ownership in AIG was 77%.
24
   In May 2010, AIG disclosed in a Securities and Exchange Commission filing that Benmosche had substantially
   achieved or exceeded his target performance level needed to earn his incentive award.
25
   Ed Whitacre was GM’s CEO from December 2009 through August 2010.
26
   Dan Akerson became GM’s CEO, effective September 1, 2010.
27
   Al de Molina announced his resignation in November 2009.


12-001                                                                                                 January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                       21




                        retained and Carpenter was a newly hired senior executive officer. In subsequent
                        years, Carpenter’s cash salary was reduced to $0 because Ally’s compensation
                        committee requested that all of the CEO’s compensation be based on the long-
                        term equity value of the company. Accordingly, based on one of the firm’s
                        financial disclosures, for 2010, the CEO’s 2009 cash salary of $950,000 was
                        discontinued and the CEO’s stock salary was increased by an equal amount.


                        The Special Master Was Inconsistent in Approving Cash
                        Salaries in Excess of $500,000

                        SIGTARP found that the Special Master was inconsistent in applying OSM’s
                        prescription to limit cash salaries to $500,000 except for “good cause” shown.
                        OSM lacked documentation supporting why it provided employees cash salaries
                        of more than $500,000. The Special Master told SIGTARP that it was always his
                        decision to approve cash salaries of more than $500,000 based on names,
                        circumstances, and empirical data. He told SIGTARP that he never told
                        companies to choose which employees would receive cash salaries of more than
                        $500,000.

                        The Special Master said, in looking for evidence, companies might say, “we need
                        this guy” and argue reasons why. He also said there was open communication
                        with the companies about the importance of those employees. However, instead
                        of looking at each person to determine “good cause,” the Special Master allowed
                        Ally and GM to choose which employees would receive more than $500,000.
                        Ally executives told SIGTARP that OSM gave them a “ballpark number” of two
                        to four employees who could be paid more than $500,000 in cash salary and that
                        the CEO selected the employees. For GM, in a February 27, 2010, email, the
                        Special Master corresponded with OSM staff after a call from GM executives to
                        consider eight employees for cash increases for salaries greater than $500,000.
                        The Special Master questioned the OSM staff: “Can we (should we?) permit GM
                        to go above $500,000 with a few? … Which ones? Or should I just get to her and
                        tell her we can’t do it?” OSM staff responded to the Special Master: “With
                        respect to GM, we told them a maximum of five above $500K and four at $500K.
                        We left it to them to decide which individuals would be taken down to comply
                        with these restrictions.” SIGTARP found that OSM approved nine GM pay
                        packages in 2010 that contained cash salaries of more than $500,000.28 In 2011,
                        OSM approved cash salaries of more than $500,000 for 11, or 44% of GM’s
                        Top 25 employees.



28
     CEOs Whitacre and Akerson each received pay packages totaling $9 million with cash salaries of
     $1.7 million.



12-001                                                                                                January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                         22




                     Ally CEO Carpenter told SIGTARP that the $500,000 annual cash salary limit
                     was constraining: “We had an individual who was making $1.5 million total
                     compensation with $1 million in cash. Cutting this person’s salary to
                     $500,000…this individual is in their early 40s, with two kids in private school,
                     who is now considered cash poor. The reduction in monthly cash expenses would
                     take at least two years to monetize value via stock salary…We were concerned
                     that these people would not meet their monthly expenses due to the reduction in
                     cash.”

                     In making these decisions, Feinberg was aware of political risk, telling SIGTARP
                     that there was a combination of data refinement plus anecdotal evidence minus
                     political risk. Ally officials told SIGTARP that public perception was possibly a
                     reason the Special Master granted only two to three exceptions. Ally officials
                     also said that the Special Master was concerned that a majority of the Top 25
                     employees were part of the problem that resulted in the bailout.

                     According to OSM, the Special Master relied on the companies to provide
                     justifications for all individual compensation proposals, including proposals for
                     cash salaries above $500,000. However, SIGTARP found that OSM’s
                     justifications for cash salaries it approved in excess of $500,000 lacked detail.
                     For example, for 2011, several of OSM’s justifications were “No Change” 29 and
                     “Critical to Turnaround.”30



                     With Limited Justifications, OSM Approved Cash Salaries of more
                     than $500,000 for Employees of AIG, GM, Chrysler Financial, and
                     Ally

                     In 2010, OSM approved a $1.5 million cash salary for one AIG employee
                     because, according to OSM, it was important to retain this employee. That same
                     year, OSM approved $700,000 in cash salary for three AIG employees who were
                     considered to be crucial. In 2011, OSM kept the same $700,000 cash salary for
                     two of those AIG employees. OSM also approved a cash salary of $1.8 million
                     for one AIG employee and a cash salary of $975,000 for another AIG employee,
                     both of whom were deemed crucial to the company’s turnaround.

                     In 2009, OSM approved a cash salary of $750,000 for one GM employee because
                     OSM considered the employee crucial to retain. The next year, OSM approved
                     cash salaries between $600,000 and $900,000 for four GM employees whom

29
   “No Change” was the rationale for three AIG employees who each received $700,000 or more in cash salary
   and four GM employees who each received $580,000 or more in cash salary.
30
   “Critical to Turnaround” was the rationale for one AIG employee who received $1.8 million in cash salary
   and six Ally employees who each received $550,000 or more in cash salary.


12-001                                                                                                  January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                           23




                  OSM considered crucial to GM’s turnaround and who were given additional
                  responsibilities regarding the company’s restructuring. In 2011, OSM approved
                  cash salaries ranging from $578,024 to $900,000 for 10 GM employees. Some of
                  the employees were considered crucial, took on additional responsibilities, and
                  received significant promotions.

                  In 2009, OSM approved cash salaries of approximately $1.4 million, $800,000,
                  and $600,000 for three employees of Chrysler Financial, which was liquidating.
                  According to OSM, it approved these salaries for these employees because the
                  company viewed them as filling essential roles during the company’s wind-down.
                  In 2010, the company proposed 20% cash salary increases over 2009 approved
                  levels for all Top 25 employees, which would have resulted in 14 employees
                  whose cash salaries would have exceeded $500,000. According to OSM, cash
                  salaries were appropriate for Chrysler Financial employees because the company
                  would liquidate and needed to give employees incentives to remain at the firm.
                  OSM approved a 10% increase in cash compensation as opposed to the 20% raise
                  requested. Company executives told SIGTARP they believed OSM’s decision to
                  allow 10% raises as opposed to the 20% requested was due to public perception.
                  They also said they did not request a reconsideration because of potential negative
                  publicity and for not wanting to “rock the boat.” Seven employees received
                  between $539,000 and approximately $1.5 million each.

                  In 2009, OSM allowed one Ally employee to be paid cash salary of $600,000 on
                  the basis that the employee was considered crucial. In 2010, no Ally employees
                  were paid more than $500,000 in cash. In 2011, OSM approved cash salaries
                  ranging from $550,000 to $600,000 for six Ally employees deemed crucial to the
                  company’s turnaround. One of those employees was a new hire, while four of
                  them had been with the company for fewer than two years.



                  The Special Master’s Criteria of Using the 50th Percentile Pay Level
                  for Similarly Situated Employees and the Selection of Peer Groups
                  Were Not Based on Substantive Due Diligence

                  OSM used the 50th percentile to set pay packages under an IFR policy that says
                  compensation structures should reflect the need for TARP recipients to remain
                  competitive, to retain and recruit talented employees who will contribute to the
                  TARP recipient’s future success, and ultimately to repay TARP obligations. The
                  Special Master told SIGTARP that the 50th percentile level of compensation was
                  an “obvious” starting point and an “appropriate” level of compensation to balance
                  the need to retain and attract employees. Other OSM officials called the 50th
                  percentile “reasonable.” According to OSM, the 50th percentile allowed the
                  companies to be paid similar to other financially distressed companies and that a


12-001                                                                                   January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                         24




                        target below the 50th percentile would have risked that the companies would be at
                        a competitive disadvantage in the marketplace.
                        Although OSM consulted with academics and an executive compensation expert,
                        that consultation yielded differing opinions. OSM did not broaden its due
                        diligence to look at how similarly situated companies paid their employees.
                        SIGTARP found no documentation that OSM researched empirical evidence of
                        pay levels at companies that may have been similarly situated, such as companies
                        in Chapter 11 reorganization, conservatorship, liquidation, or those in turnaround.
                        When asked in testimony whether he considered that the firms would have gone
                        bankrupt without Government bailouts and if he took into account that CEOs of
                        bankrupt firms don’t get paid a lot, the Special Master said that OSM looked at all
                        of the variables to try and come up with a pay package that was appropriate in
                        light of competitive pressures.

                        OSM’s methodology was not created until after OSM issued its first set of
                        determinations. The methodology says the 50th percentile balanced the fact that
                        recipients were financially distressed companies and the fact that the recipients
                        needed to remain competitive in the marketplace, but it does not address how
                        OSM arrived at the 50th percentile target for compensation. OSM officials told
                        SIGTARP that some of the companies thought they should be higher than the
                        50th percentile, but OSM officials did not feel this was “appropriate.” OSM
                        officials told SIGTARP that the seven companies did not have a great argument
                        that they were better than the 50th percentile because, “If they were better than
                        the 50th percentile, they wouldn’t be having discussions with OSM in the first
                        place.” Given OSM’s explanations of “obvious,” “reasonable,” and
                        “appropriate,” and OSM’s lack of any documentation of the selection of these
                        criteria, it appears that OSM’s selection of the 50th percentile was based on OSM
                        staff’s experience with setting executive compensation rather than on empirical
                        evidence.

                        There is a debate surrounding OSM’s use of the 50th percentile. COP issued a
                        February 2011 report that states that while the 50th percentile is an intuitively
                        appealing middle ground, the Special Master presented no evidence that it is the
                        appropriate level of pay for a firm to remain competitive. COP was critical of
                        OSM for saying that it looked at distressed companies, but did not consider
                        market data on pay for turnaround specialists. COP also says that it is unclear
                        how many distressed companies were considered and the impact they had on
                        OSM’s calculations.

                        University of Southern California (“USC”) Professor Kevin J. Murphy,31 who
                        served as a consultant for OSM, shared his concerns with OSM about using the

31
     Kevin J. Murphy is the Kenneth L. Trefftzs Chair in Finance in the Department of Finance and Business
     Economics at the USC Marshall School, professor of business and law in the USC Law School, and professor
     of economics in the USC Economics Department.


12-001                                                                                                  January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                         25




                  50th percentile as a basis for approving compensation. He said that targeting the
                  50th percentile does not provide information on how the peer groups were chosen,
                  what companies are in the peer groups, or how the various components of pay
                  were defined, calculated, and added together to form total compensation.
                  Murphy, who testified before COP that the pay restrictions for TARP recipients
                  were value destroying, even suggested that the 50th percentile target may be too
                  low to attract executives to financially troubled companies.


                  SIGTARP Was Unable To Analyze Whether the Special
                  Master Consistently Applied the 50th Percentile Criteria
                  Because OSM Did Not Maintain Adequate Documentation

                  SIGTARP was unable to analyze OSM’s application of the 50th percentile pay
                  level for similarly situated employees because OSM did not maintain complete
                  records of the market-based data that factored into its determinations. Since OSM
                  did not maintain those records showing how it determined the 50th percentile for
                  each position in each company, SIGTARP could not determine whether OSM’s
                  50th-percentile analysis was based on similarly situated employees for
                  comparison, how closely pay determinations aligned with those comparisons, and
                  whether OSM consistently applied those comparisons.

                  An AIG official told SIGTARP that AIG was not aware of the market data used
                  by OSM. He said he was surprised when OSM rejected the market data submitted
                  by AIG in which AIG compared itself to other large companies at the
                  75th percentile for salary targets. Although AIG did not know what market data
                  OSM used, the AIG official told SIGTARP that it apparently measured AIG
                  against a different universe of firms and AIG disagreed with that universe of
                  firms.




12-001                                                                                 January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                             26




                  AIG Pushed for Excessive Raises in Cash
                  Salaries for Its Top 25 Employees and
                  Pushed Against Pay in AIG Stock
                  This section discusses how the Special Master arrived at determinations for AIG
                  as well as the unique circumstances and issues surrounding OSM’s process to set
                  pay at AIG.

                  OSM told SIGTARP that it faced a different experience working with AIG than
                  with the other six companies. The Special Master stated that AIG constituted
                  80% of his headaches throughout the 2009 pay determination process. AIG did
                  not have a good handle on its data, could not identify its Top 25 employees, and
                  was the only company that did not agree to renegotiate cash compensation
                  grandfathered through prior employment contracts. OSM said AIG’s vast size
                  and the lack of connection between subsidiaries made it difficult for AIG to
                  determine its Top 25 employees.

                  In 2009, AIG requested excessive increases in cash salaries and was against pay
                  in the form of stock due to concerns over the value of AIG common stock. As a
                  basis for setting pay, AIG wanted to compare itself to Goldman Sachs, JPMorgan
                  Chase & Co., and Morgan Stanley, presumably because those companies paid
                  employees more than AIG did, and AIG also wanted to compare its business unit
                  heads to CEOs of other companies. OSM ruled that these were not reasonable
                  comparisons for AIG. Other senior Treasury officials were significantly involved
                  in AIG’s pay determination process, but not for other companies. In 2010, AIG
                  again requested cash salary increases and pushed against pay in AIG common
                  stock. In 2011, AIG proposed that five employees be approved to receive more
                  than $500,000 in cash salary and requested stock salary in the form of AIG
                  common stock or common stock units.


                  Before the Creation of OSM, AIG Faced Congressional and
                  Public Anger After Paying Millions of Dollars in Retention
                  Awards to AIGFP Employees Post-Bailout

                  AIG’s compensation was an issue before OSM was established. As detailed in
                  SIGTARP’s October 14, 2009, audit report, “Extent of Federal Agencies’
                  Oversight of AIG Compensation Varied, and Important Challenges Remain,”
                  after AIG was bailed out by the Government, it paid millions of dollars in
                  retention payments to around 400 employees of its Financial Products unit




12-001                                                                                   January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                               27




                       (“AIGFP”), whose losses contributed to the need for Government intervention.32
                       Approximately half of the total retention awards were distributed to around 400
                       employees in two installments: nearly $56 million in retention awards in
                       December 2008 and approximately $168 million in March 2009. Approximately
                       62% of AIGFP employees received retention awards of $100,000 or more. The
                       retention payments were made under pre-Recovery Act contracts and were
                       outside the jurisdiction of OSM.

                       In March 2009, Congress and the public expressed anger over the $168 million in
                       AIG award payments, particularly because AIGFP was the group whose financial
                       losses largely led to AIG’s need for large-scale Government intervention.
                       Congress held hearings and introduced legislation to tax the awards. There was
                       significant media coverage, including news that protestors visited homes of AIG
                       employees and some employees received threats. The situation became so heated
                       that AIG asked AIGFP employees who received retention awards of more than
                       $100,000 to return 50% of the award received. Ultimately, AIGFP employees
                       paid back or waived more than $45 million that employees pledged to return to
                       the firm.33

                       These early retention awards are important to understand the work of the Special
                       Master as they related to AIG because under the contracts, $198 million in awards
                       was scheduled for payment in March 2010. Feinberg told SIGTARP that AIG
                       posed a huge political problem when it paid out the bonuses to AIGFP employees.
                       He added that “politically, AIG was a nightmare” because it had a huge problem
                       with grandfathered contracts, bonuses, and severance. For OSM’s 2009
                       determinations, five of AIG’s Top 25 employees worked for AIGFP and were
                       eligible for retention awards. In addition, AIG also had to make cash awards to
                       other AIG Top 25 employees under pre-Recovery Act contracts. The Special
                       Master took the retention awards into consideration when setting pay for the
                       Top 25 because AIG would not renegotiate the contracts and planned to pay the
                       awards as scheduled. SIGTARP recommended that OSM consult with the
                       Federal Reserve Bank of New York (“FRBNY”) for input because it was heavily
                       involved in AIG executive compensation issues.



32
   This audit report addresses the extent of the knowledge and oversight by Federal Reserve and Treasury
   officials over AIG compensation programs, and, specifically, retention payments to AIGFP. The report also
   addresses the extent to which AIGFP retention payments were governed by the executive compensation
   restrictions or by preexisting contractual obligations, the outstanding AIG compensation issues requiring
   resolution, and Federal Government actions to address them. AIGFP’s primary business was trading in
   derivatives of stocks and other securities. Of the $25 billion in losses that AIG announced in the third quarter
   of 2008, $19 billion came from AIGFP’s losses on one type of derivative called credit default swaps. These
   conditions led to the unprecedented Government bailout of AIG.
33
   Eight employees in AIG’s Top 25 pledged to repay $22.1 million in AIGFP retention awards. In the end,
   those eight employees reimbursed AIG $15.8 million.


12-001                                                                                                        January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                            28




                        OSM told SIGTARP that it faced a different experience working with AIG than
                        with the other six companies. The Special Master stated that AIG constituted
                        80% of his headaches throughout the 2009 pay determination process. AIG did
                        not have a good handle on its data due to its vast size and many subsidiaries,
                        could not identify its Top 25 employees, and was the only company that did not
                        agree to renegotiate cash compensation grandfathered through prior employment
                        contracts.


                        AIG Employees Declined Request To Restructure Upcoming
                        Retention Awards Under Pre-Recovery Act Employment
                        Contracts

                        Although OSM could not require TARP companies to stop payment of future
                        awards under contracts that existed prior to the Recovery Act, OSM pushed AIG,
                        Bank of America, and Citigroup to restructure voluntarily future cash awards into
                        stock.34 However, AIG did not agree. Bank of America and Citigroup, on the
                        other hand, restructured future awards so that when the awards with salary
                        exceeded $500,000, the balance was payable in stock salary and long-term
                        restricted stock. Feinberg told SIGTARP that the companies “understood the
                        potential for Congressional uproar had they not.” In 2009, 11 AIG employees
                        were scheduled to receive retention awards and other payments. In 2010, 18 AIG
                        employees were scheduled to receive retention awards and other payments. The
                        largest of these payments in both years was approximately $4.7 million.

                        Jim Millstein, Treasury’s then-head of restructuring for AIG, was heavily
                        involved in the discussions regarding AIG’s retention awards. Millstein told
                        SIGTARP that it was not a particularly smooth operation with the Special Master
                        and AIG initially because AIG’s human resources function was in disarray with
                        each subsidiary controlling its own data on executive compensation. Millstein
                        told SIGTARP that he looked at each grandfathered contract and worked on what
                        was in the jurisdiction of OSM to change. In the end, AIG did not take away any
                        of the upcoming awards.

34
     The Recovery Act mandated that OSM conduct a “look-back” at post-TARP bonuses, retention awards,
     golden parachutes, and other awards paid to the Top 25 employees at all TARP recipients pursuant to
     contracts entered into before the Recovery Act and, where contrary to EESA, TARP, or the public interest,
     “seek to negotiate” reimbursement to the Government. OSM focused this review on the Top 25 executives
     who earned more than $500,000 per year because Feinberg felt that anything less than $500,000 a year was
     highly unlikely to be contrary to the public interest. OSM found that 17 TARP recipients, including Bank of
     America, Citigroup, and AIG, made payments of $1.7 billion that were considered “disfavored.” Special
     Master Feinberg testified before COP that the awards were “inappropriate because they were taking taxpayer
     money and feathering their own nest.” Despite finding the awards inappropriate and disfavored, OSM found
     that no post-TARP payments were contrary to the public interest because then-existing rules allowed the
     payments, and the payments were largely from companies that had repaid TARP. Therefore, OSM concluded
     that it had no authority to “seek to negotiate” reimbursement to the Government.


12-001                                                                                                     January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                         29




                  AIG CEO Robert Benmosche explained to SIGTARP the reasoning for AIG’s
                  decision not to restructure the awards in 2009: “I got a message that Ken
                  [Feinberg] had a desire to take away retention payments. I had to make sure my
                  people got paid. … I had 10 senior executives that lost $168 million in pay. We
                  had people that were completely wiped out when the stock fell. … The stock
                  didn’t have any value to the employees, as these people were getting stock that
                  they couldn’t sell because it was not vested. Ken Feinberg wanted to be able to
                  tell Congress that no retention payments would be paid. But the retention
                  payments were the only way to pay and keep people. They were not retention
                  payments per se, but they were bonuses that they would have normally got. ...
                  [AIG]FP was the primary cause, but everybody lost. I told him you can’t cut
                  salaries so much and put pensions in long-term stock – people need something to
                  live on ... We succeeded in keeping all retention payments. The penalty was very
                  low salaries.”


                  In 2009, AIG Proposed Excessive Cash Raises for Its Top 25
                  Employees and Proposed Treating Heads of AIG Subsidiaries
                  as CEOs

                  The fact that AIG’s CEO felt that OSM penalized AIG with very low salaries is
                  not surprising, given that in August 2009, AIG proposed excessive cash raises for
                  its Top 25 employees that generally exceeded the 50th percentile of amounts paid
                  to employees in similar roles at similar companies. OSM told SIGTARP that AIG
                  wanted to compare itself to Goldman Sachs, JPMorgan, and Morgan Stanley. In
                  its August 2009 submission to OSM, AIG also proposed that employees be able to
                  cash out immediately 50% of any stock salary received, and that compensation for
                  AIG subsidiary heads be calculated in the 50th to 75th percentile of CEOs of
                  other companies.

                  A senior AIG official told SIGTARP that AIG had a practice of paying its
                  employees high salaries with very limited incentive compensation. AIG did not
                  stray from that practice in its 2009 proposal for the Top 25 employees. According
                  to an internal OSM document, AIG proposed to the Special Master cash salary
                  increases from 20% to 129% over 2008 cash salaries for one group of AIG
                  employees. The document stated that these proposed salaries were larger than
                  previously discussed with OSM and were unjustified by the comparative data.
                  The document also stated that for another group of employees, AIG proposed
                  cash salary increases ranging from 84% to 550% that were also too high and
                  unjustified. In addition to the cash raises proposed by AIG for Top 25 employees,
                  the document also stated that AIG proposed that 50% of its stock salary be
                  sellable immediately, which would have increased guaranteed cash amounts for
                  certain employees by 55%, to 317%.



12-001                                                                                 January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                              30




                         AIG also proposed compensation for the heads of AIG subsidiaries comparable to
                         the 50th to 75th percentiles of CEOs of other companies. OSM rejected AIG’s
                         proposal to treat these employees as CEOs, explaining to SIGTARP, “When you
                         are the CEO of a [subsidiary], your responsibilities are substantially different than
                         if you are the CEO of a public company.” OSM said that it took a hard-line
                         stance that each of the seven companies had only one CEO who should be paid
                         like a CEO.


                         The Special Master Set Salaries for AIG Top 25 Employees in
                         2009

                         For 2009, OSM approved only five of the 13 employees in AIG’s Top 25 to
                         receive total compensation of cash and stock of more than $1 million. OSM
                         approved new AIG CEO Benmosche’s pay package of $10.5 million ($3 million
                         in cash salary, $4 million in AIG common stock, and $3.5 million in restricted
                         stock tied to achieving performance measures). OSM approved total
                         compensation packages for four AIG employees at approximately $4.3 million,
                         $4.7 million, $5.7 million, and $7.1 million (including cash salaries ranging from
                         $350,000 to $450,000). These employees were scheduled to also receive cash
                         retention awards that year of up to $2.4 million.35

                         At the time OSM was determining pay for AIG, 11 of the 13 employees in AIG’s
                         Top 25 were scheduled to receive cash retention awards and other payments in
                         2009 of up to approximately $4.7 million. OSM told SIGTARP that it considered
                         these awards when setting the employees’ compensation. Special Master
                         Feinberg testified before the House Committee on Financial Services that for AIG
                         for 2009, he refused to adopt AIG’s proposed cash salaries, “which, in light of the
                         retention payments, would have resulted in an excessive level of cash
                         compensation.”

                         For five AIGFP employees who were scheduled to receive 2009 cash retention
                         awards up to approximately $4.7 million, OSM froze cash salaries at 2007 levels
                         ($100,000 to $177,799) and gave them no stock. For non-AIGFP employees who
                         would receive retention awards up to $2.4 million, OSM set the employees’ cash
                         salaries below 2007 levels ($350,000 to $450,000). Table 3 is a side-by-side look
                         at the compensation approved by the Special Master as well as the retention
                         awards AIG employees were scheduled to receive under prior Recovery Act
                         contracts.



35
     Kris Moor, President of AIG’s Chartis subsidiary, was scheduled to receive a $2.4 million retention award.
     David Herzog, AIG’s CFO, was scheduled to receive a $1.5 million retention award.



12-001                                                                                                       January 23, 2012
           THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
           OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                                                                     31



TABLE 3
22009 AIG TOP 25 TOTAL COMPENSATION APPROVED BY THE SPECIAL MASTER AND AUTHORIZED CASH
 RETENTION AWARDS AND OTHER PAYMENTS SCHEDULED TO BE PAID UNDER PRE-RECOVERY ACT CONTRACTS
                                                                              Long-Term
AIG                    Cash                                                   Restricted                      Authorized Cash Retention
Employees              Salary                   Stock Salary                    Stock                        Awards and Other Payments                          Total[1]
  1                 $3,000,000                   $4,000,000                   $3,500,000
  2                    350,000                      100,000                       225,000
  3
                                                                                                                                Information
                       125,000                         –                            –
                                                                                                                                 Redacted
  4                    177,799                         –                            –

  5                    425,000                         –                            –
                                                                                                                                  (See note)
  6                    125,000                         –                            –

  7                    350,000                    3,104,167                       833,333

  8                    144,000                         –                            –

  9                    100,000                         –                            –

10                     450,000                    4,691,667                    2,000,000

11                     425,000                         –                            –
                                                                                                                                         (b)(4)
12                     450,000                    3,258,333                    1,000,000

13                     375,000                     3,566,666                   1,750,000

Total               $6,496,799                  $18,720,833                   $9,308,333                                   $22,180,000                          $57,705,965
 [1]: In addition to retention awards, there was one authorized payment for carried interest.
 Note: In response to a draft of the AIG-specific portions of this report, AIG raised concerns about the inclusion of individual cash retention and other cash award data
     on the grounds that it was confidential financial information that had not previously been publicly disclosed and that disclosure of individual awards could harm
     AIG. SIGTARP is cognizant that the United States taxpayers currently own a significant percentage of AIG and thus out of an abundance of caution has worked
     with AIG to make redactions of individual employee award data outside of OSM’s determinations.
 Sources: SIGTARP analysis of data from AIG and OSM.




                                        SIGTARP found that Millstein intervened in the Special Master’s process to set
                                        the pay package for AIG CFO David Herzog.36 Millstein told SIGTARP that his
                                        primary focus was to “keep AIG together.” Millstein told SIGTARP that he
                                        [Millstein] was a facilitator/mediator between AIG and the Special Master. He
                                        weighed in on OSM’s 2009 pay determination for AIG CFO Herzog, telling the
                                        Special Master that if AIG did not retain its CFO, it risked a credit rating
                                        downgrade. He advised the Special Master that AIG needed to keep Herzog by
                                        possibly adding a little more cash, and a little more total compensation. In
                                        response, Millstein said, the Special Master gave some concession to AIG’s
                                        request for additional compensation, and the CFO remained at AIG.


           36
                FRBNY Executive Vice President Sarah Dahlgren told SIGTARP that she may have asked for an exception to
                the $500,000 cash salary cap for AIG CFO David Herzog. She also told SIGTARP that she asked OSM to
                treat the CEO of AIG subsidiary Chartis, who was a second- or third-tiered executive, at a higher peer group
                than OSM had benchmarked. However, these requests did not influence the Special Master, who kept
                Herzog under the cap and did not treat the Chartis CEO as a CEO. Dahlgren told SIGTARP that the Special
                Master did not consider her assessment for a specific AIG executive.


           12-001                                                                                                                                        January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                           32




                         AIG Received Consideration for a Different Form of Stock
                         Salary for 2009

                         Feinberg told SIGTARP that AIG was anti-stock salary and wanted to pay
                         employees in cash. In its August 2009 compensation proposal, during the height
                         of contentious negotiations between AIG and the Special Master, AIG requested
                         that employees be able to cash out immediately 50% of any salary paid in AIG
                         common stock, and proposed receiving stock salary amounts ranging from
                         $250,000 to $4.6 million for employees. AIG proposed not to receive any
                         incentive awards in long-term restricted stock tied to achievement of performance
                         measures. OSM pushed back, making clear that immediately sellable stock was
                         not allowable, and insisting that part of the employees’ pay be vested over a
                         period of time.

                         AIG enlisted the help of Treasury officials Millstein and the Assistant Secretary
                         for Financial Stability, Herbert Allison. In an interview with SIGTARP, AIG
                         CEO Benmosche said that he told Millstein that the process was dysfunctional,
                         that AIG had a lot of concerns, and people would leave. He also told SIGTARP
                         that he asked Millstein to talk to Treasury and Feinberg to figure out the executive
                         compensation determination process.

                         Feinberg told SIGTARP that OFS stressed that the stock salary and grandfathered
                         contracts would jeopardize AIG. Feinberg told SIGTARP that he was pressured
                         by other senior Treasury officials and was told to be careful, that AIG owed a
                         fortune, and that Treasury did not want it to go belly up.37 He further stated that
                         Treasury officials felt those amounts were relatively small compared to the
                         Government’s exposure in AIG. Despite these pressures, Feinberg said that no
                         one trumped his decisions.




37
     For details regarding the Government’s investment in AIG and the firm’s recapitalization plan, see
     Appendix D.


12-001                                                                                                    January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                           33




                        AIG and Treasury Officials Created a Phantom (Basket) Stock
                        for Six AIG Employees

                        Feinberg told SIGTARP that in his 2009 discussions with AIG related to stock
                        salary, AIG officials indicated that its common stock was essentially worthless.38
                        Feinberg said that to his surprise, this belief was shared by the Federal Reserve
                        and Treasury’s OFS. Whether the stock had value or not, it was volatile.
                        Between the release of the IFR on June 15, 2009, and OSM’s 2009 AIG
                        determination on October 22, 2009, AIG’s adjusted stock price ranged from $7.94
                        per share to $42.09. Feinberg testified before COP that he “tried to work
                        something out in conjunction with AIG’s suggestion that the stock, the common
                        stock, wasn’t worth enough to appropriately compensate top officials. But we
                        worked out a compromise with the Federal Reserve, with AIG, with the Office of
                        Financial Stability.”

                        SIGTARP found that then-Assistant Treasury Secretary Allison’s communication
                        with AIG officials over compensation was quite significant and starkly contrasted
                        with almost no involvement in compensation with the other six companies.
                        Allison had weekly telephone conversations with AIG CEO Benmosche and
                        AIG’s then Chairman of the Board during the height of OSM’s 2009
                        determination process. Allison told SIGTARP that there were times when he was
                        contacted by AIG top management who told him they were concerned that the
                        Special Master’s decisions would cause great reactions in keeping people.
                        Allison told SIGTARP that Feinberg was “tamping down” at AIG’s board.

                        Allison said that he voiced his concerns to the Special Master that AIG’s stock
                        had a lot of volatility and questioned whether it would be a reliable instrument of
                        value to retain and motivate employees. He said that stock salary needed to have
                        value and be linked to performance. He also said that he thought that AIG’s stock
                        was not very valuable and said, “…trading can go one way one day, the other
                        another…Could it be worth something? Yeah, it could. Could it be worthless?
                        Yeah, depends on what happens with the company.” Allison also told SIGTARP
                        that he “was there from the standpoint of protecting assets and taxpayers” and
                        “There was a ton of money invested and you don’t want to see it thrown away.”

                        Treasury’s Millstein had a heavy hand in OSM’s decision on AIG stock. He told
                        SIGTARP that he helped develop a new “phantom stock” that did not exist, was
                        independent of AIG’s balance sheet, and the value of which was based on the
                        book value of four AIG subsidiaries. Millstein helped create this phantom stock
                        (also called a basket stock), even though AIG’s common stock was trading on the

38
     AIG’s prior General Counsel told SIGTARP that management viewed AIG’s stock as having less value than
     other companies’ stocks and that AIG did not know if the firm would survive, and did not know what its
     stock was worth. These facts bring to light why AIG’s initial proposal to OSM requested that half of the
     executives’ stock salary be immediately sellable.


12-001                                                                                                    January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                            34




                        market at an adjusted price of $20.42 per share on August 14, 2009, the same day
                        that AIG submitted its proposal to OSM to receive immediately sellable common
                        stock. He said that those subsidiaries had some measure of value and that it was
                        the best option. The four subsidiaries – American International Assurance Co.
                        Ltd. (“AIA”), American Life Insurance Co., Chartis, and AIG Domestic Life &
                        Retirement Services Group – were identified by OSM as those that AIG,
                        Treasury, and FRBNY identified as crucial to the future of the company.
                        However, a stock based on the values of AIG subsidiaries may not sufficiently
                        reflect losses sustained at AIGFP or reflect AIG’s massive Government
                        assistance.

                        The Special Master also consulted with FRBNY, which had been handling AIG’s
                        compensation issues prior to OSM. FRBNY Executive Vice President Sarah
                        Dahlgren told SIGTARP that she learned from participating in AIG compensation
                        committee meetings of employee concerns about the potential for future dilution
                        or price volatility if the Government were to sell off its ownership rapidly.
                        Dahlgren and another FRBNY official told SIGTARP that they were concerned
                        that if senior management left, it could trigger a potential downgrade, based on
                        statements to them by the rating agencies.

                        AIG CEO Benmosche opposed the phantom stock because it would send the
                        wrong message to AIG subsidiaries. That opposition is illustrated in a
                        September 28, 2009, email among OSM staff that referred to a discussion with an
                        AIG attorney: “Bob Benmosche has found that the subsidiaries are not working
                        well together – for example, some subsidiaries are hoarding cash to shore up their
                        own balance sheets, rather than conveying the cash to the parent, where it is badly
                        needed – and that Bob has concluded that subsidiary stock would exacerbate that
                        problem…Bob is adamantly opposed to the use of subsidiary stock, he [an AIG
                        attorney] said that a very high-level OFS business-level conversation would need
                        to be had to move Bob from that position.” On the day of this email, AIG’s stock
                        was trading at an adjusted price of $38.66 per share. Benmosche told SIGTARP
                        that a problem with the phantom stock was that it assumed AIG would divest all
                        companies, but he did not know how to define value in Chartis and AIA when
                        those entities were sold. Despite Benmosche’s concerns, OSM approved the new
                        phantom stock salary for AIG, citing “the principle that AIG must be able to
                        maintain and attract the necessary employees to remain competitive in the
                        marketplace.”39 However, for all of the work that went into creating this phantom
                        stock, OSM applied it to only six AIG employees, including the CEO.

                        OSM’s use of a phantom stock for AIG employees’ compensation stands in
                        contrast to OSM’s treatment of other companies that were also facing volatility in
                        their stock price.
39
     According to OSM, the value of each subsidiary was to be determined on the basis of an adjusted book value
     measure that excluded extraordinary events.


12-001                                                                                                     January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                                        35




                           Citigroup officials told SIGTARP that the most significant decision by the Special
                           Master was the use of stock salary. However, Citigroup had no intention of
                           staying under the Special Master’s purview beyond 2009. Citigroup officials
                           explained to SIGTARP that their approach for dealing with the Special Master’s
                           decision to use stock salary was to reassure employees that this would be a short-
                           term process and that they should hang on despite the drop in price. AIG,
                           Citigroup, and Bank of America’s adjusted stock prices are illustrated in Figure 4.
FIGURE 4
CLOSING DAY STOCK PRICES FOR PUBLICLY TRADED COMPANIES THAT RECEIVED
EXCEPTIONAL ASSISTANCE FROM 3/2009 THROUGH 11/2011
  $60




  $50




  $40


                                                                                                                         BofA
  $30                                                                                                                    Citi
                                                                                                                         AIG


  $20




  $10




   $0
     Mar-09     Jun-09    Sep-09     Dec-09    Mar-10     Jun-10     Sep-10    Dec-10     Mar-11     Jun-11   Sep-11
Source: SIGTARP analysis based on data from Yahoo Finance. Stock prices adjusted for stock splits.




12-001                                                                                                                 January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                          36




                  The Special Master Changed the Form of Stock
                  Compensation for Six AIG Employees from Phantom Stock
                  to AIG Common Stock

                  Shortly after OSM issued its determinations paying AIG’s Top 25 in the phantom
                  stock, AIG CEO Benmosche enlisted the help of senior Treasury officials
                  Millstein and Allison to deal with the Special Master. Beyond his weekly
                  communication with AIG, Allison attended two key meetings with AIG’s
                  executives to discuss compensation. In November 2009, after the first
                  determination was issued, he met in New York City with Special Master Feinberg
                  and AIG’s Board of Directors and CEO. Allison said that because of
                  miscommunication, AIG’s board felt the Special Master was not aware of its
                  challenges and that there was an issue of a lack of trust. Benmosche told
                  SIGTARP that he told Allison after the board meeting that “this cannot continue,”
                  “it was ridiculous,” and “that the Government is too involved and nothing makes
                  sense.” Benmosche also said he told Allison that he was running out of patience,
                  Allison asked him to “give me time,” and Benmosche told him he had a month,
                  from November to December.

                  Benmosche also told SIGTARP that he met with FRBNY’s Dahlgren and her
                  team and asked them to tell Treasury to be flexible. He also told SIGTARP that
                  he warned Dahlgren, “If you want to get your money back, you had better fix
                  this.” In December 2009 in Washington, D.C., AIG CEO Benmosche met with
                  Special Master Feinberg, an OSM staff member, Allison, and Millstein. While
                  this meeting took place after OSM’s October 22, 2009, determination, Benmosche
                  told SIGTARP that this meeting was about 2009 pay because there were
                  unresolved issues in play, particularly surrounding the pay of AIG’s President and
                  the CEO of one of AIG’s subsidiaries. Allison also told SIGTARP that the
                  purpose was to finalize OSM’s AIG pay determinations.

                  Subsequent to this meeting, in a December 21, 2009, supplemental determination
                  letter to AIG, the Special Master reversed his written October 22, 2009,
                  determination letter granting phantom stock to AIG employees and instead
                  granted AIG’s new request to pay employees with AIG common stock. The
                  supplemental determination said that common stock would provide employees
                  with incentives to maximize the value of AIG and, therefore, its ability to repay
                  the taxpayer.




12-001                                                                                  January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                           37




                  In 2010, AIG Proposed Cash Salary Increases and Again
                  Pushed Back Against Executive Pay in AIG Common Stock,
                  Requesting Instead an Alternative Form of Stock Salary

                  On January 3, 2010, The New York Times reported in an interview with Feinberg
                  that AIG thought its stock was worthless and that Feinberg agreed that AIG
                  employees would get a form of phantom stock reflecting only four AIG operating
                  units that were profitable and not part of AIG’s downfall. Feinberg told
                  SIGTARP that in 2010, after the article, AIG was even more reluctant to take
                  stock salary. In addition, AIG had entered into an agreement to sell some of the
                  subsidiaries that were in the basket stock.

                  On January 15, 2010, AIG submitted its 2010 proposal including cash salary
                  increases and requested another alternative form of stock salary that, according to
                  AIG’s 2010 determination letter, reflects the value of common stock and “hybrid
                  securities.” At this time, AIG’s stock was trading at an adjusted price of $23.51.
                  OSM approved this new form of stock compensation, along with cash salaries, for
                  all but one AIG employee.

                  With significant turnover in employees who fell within the Top 25, AIG proposed
                  excessive cash salaries, citing the desire to keep 2009 salaries ($350,000 to
                  $1.5 million) for those new to the Top 25 designation. AIG proposed that nine of
                  its Top 25 employees be paid more than $500,000 in cash salary. For three
                  employees, AIG proposed cash raises that would result in 100% to 140%
                  increases over 2009. AIG proposed stock salaries based on the hybrid basket
                  stock ranging from $200,000 to $7.7 million for certain new Top 25 employees.
                  For three employees who were part of AIG’s 2009 Top 25, AIG proposed stock
                  salary increases between 65% and 87% over 2009 OSM-approved pay. For these
                  three employees, OSM found this amount was excessive in comparison to
                  similarly situated peers and inconsistent with public interest. AIG also proposed
                  to limit long-term incentive awards to 10% of total 2010 compensation, but OSM
                  rejected the request.

                  OSM approved large compensation packages for AIG employees in 2010, even
                  though 18 of the employees were scheduled to receive up to $4.7 million in
                  retention awards and other payments. In 2009, OSM gave approval that five
                  employees could be paid compensation of more than $1 million in cash and stock,
                  and the other eight fell well under that. However, in 2010, of AIG’s Top 25,
                  OSM approved 21 of 22 employees to receive between $1 million and
                  $7.6 million (and $10.5 million for CEO Benmosche), with 17 of those pay
                  packages exceeding $3 million.

                  OSM approved cash salaries of more than $500,000 for five AIG employees,
                  including a $3 million cash salary for AIG’s CEO Benmosche, $700,000 for Kris


12-001                                                                                   January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                           38




                  Moor, AIG’s Executive Vice President for General Insurance, and $1.5 million,
                  $1 million, and $700,000 for other AIG employees. With respect to other
                  employees, OSM approved them to receive more than $500,000 because they
                  were considered “critical.” OSM approved 12 of AIG’s 23 employees to be paid
                  cash salaries between $442,874 and $500,000 and also approved for all but three
                  employees more than $1 million in stock (between $1.3 million and $5.1 million).

                  In 2010, AIG proposed that four AIGFP employees be paid cash salaries of
                  $500,000 and stock salaries ranging from $2 million to $3 million that could be
                  cashed out after one year. OSM rejected the proposal to sell stock salary after one
                  year and also refused to give AIGFP employees, with the exception of one
                  employee, $500,000 cash salaries. The Special Master ruled that the proposed
                  salaries, combined with upcoming retention awards, would be inconsistent with
                  the public interest, and he generally froze salaries at 2007 levels. However,
                  despite freezing AIGFP cash salaries, OSM approved four AIGFP employees to
                  receive more than $3 million in stock salary, and two AIGFP employees to
                  receive $758,067 and $1.3 million in stock salary. In contrast, in 2009, OSM
                  approved only cash salaries frozen at 2007 levels with no additional compensation
                  for AIGFP employees.

                  However, 18 AIG employees were scheduled to receive retention awards and
                  other payments, including the six AIGFP employees. Despite freezing the AIGFP
                  cash salaries, OSM approved large pay packages of cash and stock for employees
                  receiving retention awards and other payments up to approximately $4.7 million.

                  Table 4 is a side-by-side look of the compensation approved by the Special
                  Master as well as the awards these employees were scheduled to receive under
                  grandfathered contracts that existed prior to the Recovery Act.




12-001                                                                                   January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                                                                  39



TABLE 4
2010 AIG TOP 25 TOTAL COMPENSATION APPROVED BY THE SPECIAL MASTER AND AUTHORIZED CASH
RETENTION AWARDS AND OTHER PAYMENTS SCHEDULED TO BE PAID UNDER PRE-RECOVERY ACT
CONTRACTS
AIG                    Cash                   Stock                 Long-Term                       Authorized Cash Retention
Employees              Salary                 Salary              Restricted Stock                 Awards and Other Payments [1]              Total [2]
 1                  $3,000,000             $4,000,000                $3,500,000
 2                      450,000             4,062,500                 1,500,000
 3                      700,000             3,050,000                 1,250,000
 4                      177,799             3,322,201                     –
                                                                                                           Information
 5                      241,933               758,067                     –                                 Redacted
 6                      125,000             3,468,750                     –
 7                      495,000             4,485,000                1,020,000
 8                      450,000             3,062,500                     –                                  (See note)
 9                      450,000             1,437,500                 625,000
10                      100,000             3,500,000                     –
11                    1,000,000             3,000,000                     –
12                      495,000             3,731,250                1,375,000
13                      700,000             5,000,000                1,900,000
14                    1,500,000             2,520,000                1,980,000
15                      475,000             2,156,250                  875,000
16                      495,000             3,656,250                  850,000
17                      500,000             1,300,000                     –
18                      475,000             4,568,750                     –
19                      495,000             5,149,000                1,156,000
20                      312,500                  –                        –
21                      475,000             2,967,932                  854,000                                      (b)(4)
22                      442,874            2,117,126                   640,000
23                      400,000               800,000                1,150,000

Total              $13,955,106           $68,113,076              $18,675,000                  $36,346,503                           $141,069,768

[1] In addition to retention awards, there were authorized payments under AIG’s Senior Partners plan.
[2] Total includes a payment for carried interest to one employee.
Note: In response to a draft of the AIG-specific portions of this report, AIG raised concerns about the inclusion of individual cash retention and
       other cash award data on the grounds that it was confidential financial information that had not previously been publicly disclosed and that
       disclosure of individual awards could harm AIG. SIGTARP is cognizant that the United States taxpayers currently own a significant
       percentage of AIG and thus out of an abundance of caution has worked with AIG to make redactions of individual employee award data
       outside of OSM’s determinations.
Sources: SIGTARP analysis of data from AIG and OSM.




12-001                                                                                                                                        January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                  40




                       In 2011, AIG Proposed Cash Salaries in Excess of $500,000
                       for Five Employees and Proposed Compensation in the Form
                       of AIG Common Stock

                       On January 14, 2011, Treasury restructured (also called recapitalized) the
                       Government’s ownership interests in AIG that would eventually lead to AIG’s
                       repayment of debts owed to FRBNY and Treasury holding approximately 92% of
                       AIG common stock, which Treasury could sell into the market. In its
                       January 31, 2011, proposal to OSM, AIG stated that in light of the recapitalization
                       plan, it proposed the use of AIG common stock for 2011 stock salary, and OSM
                       agreed.

                       AIG’s 2011 proposal for pay of its Top 25 employees was markedly different
                       from its proposals in the two prior years, for the most part proposing what OSM
                       had approved in 2010. AIG only proposed cash salaries in excess of $500,000 for
                       five employees, the same number of employees who were approved to receive
                       more than $500,000 in cash salary in 2010. AIG again proposed that
                       compensation in long-term restricted stock tied to performance measures be
                       limited to 10% of total compensation.

                       OSM approved AIG CEO Benmosche to have the same $10.5 million
                       compensation package that was approved in 2009 and 2010 on the basis that it
                       was the same compensation he had previously received. For the rest of AIG’s
                       Top 25 employees, OSM approved total compensation packages of cash and stock
                       that, with one exception, ranged from $2.5 million to $8 million.40 Of these pay
                       packages, OSM approved $8 million in total compensation for two AIG
                       employees, $7 million in total compensation for two additional AIG employees,
                       and $5 million to $6.3 million in total compensation for seven AIG employees.

                       Of these total compensation packages, OSM approved cash salaries proposed by
                       AIG including salaries over $500,000 for five employees, the same number of
                       employees approved to receive more than $500,000 in 2010. The cash salaries
                       approved by OSM over $500,000 include: a $3 million cash salary for AIG CEO
                       Benmosche, a cash salary of $1.8 million for Peter Hancock, CEO of AIG’s
                       Chartis subsidiary, $700,000 for Kris Moor, Vice Chair of Chartis, and $700,000
                       and $975,000 for the remaining two employees.

                       OSM also approved cash salaries of $500,000 for 10 AIG employees, cash
                       salaries of $400,000 to $495,000 for seven AIG employees, and a cash salary of
                       $125,000 for one AIG employee. In approving AIG’s proposed cash salaries,
                       OSM found that “in general, the proposed cash salaries target the 50th percentile
                       of cash salaries paid to persons in similar positions or roles at similar entities.”

40
     OSM approved total compensation for one AIG employee at $1.5 million.


12-001                                                                                          January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                            41




                      OSM also approved the cash raises for two employees on the basis of “enhanced
                      responsibilities and expanded roles of the affected employees.” In setting cash
                      salaries, OSM did not need to consider retention awards under pre-Recovery Act
                      contracts because there were none scheduled. In addition to the cash salaries,
                      OSM approved significant compensation to AIG’s Top 25 in the form of stock
                      salary and long-term restricted stock.41

                      AIG also proposed that employees receive AIG common stock for 2011 stock
                      salary, in light of the company’s recapitalization plan. OSM approved AIG’s
                      request, ruling that AIG’s common stock is consistent with the structure of stock
                      salary payable by the other exceptional assistance recipients.42 The company also
                      proposed that most employees receive long-term restricted stock representing
                      10% of their total 2011 compensation. However, OSM generally ruled that the
                      10% proposal failed to satisfy the IFR’s principle that an appropriate portion of
                      compensation should be performance based.43




41
   OSM rejected AIG’s proposed stock salaries and reallocated stock salary between stock salary and long-term
   restricted stock. However, for some AIG employees, OSM did approve a lower allocation of long-term
   restricted stock.
42
   The 2011 determination letter says that in certain cases, the Special Master concluded that proposed stock
   salary amounts were not justified and that a portion of compensation should be reallocated from stock salary
   to long-term restricted stock.
43
   The 2011 determination letter says that in the case of certain employees, OSM acknowledged that a lower
   allocation of long-term restricted stock was appropriate.


12-001                                                                                                     January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                          42




                  Impact of the Special Master’s
                  Determinations on the Exceptional
                  Assistance Recipients
                  This section discusses the impact of the Special Master’s determinations on the
                  exceptional assistance recipients. In testimony to the House Committee on
                  Oversight and Government Reform, Special Master Feinberg said that while his
                  authority did not go beyond the seven exceptional assistance companies, he hoped
                  that his compensation determinations would be used as a model by other
                  companies.


                  Maintaining the Special Master’s Framework

                  Special Master Feinberg testified to Congress that he determined a new
                  compensation regime be implemented for the seven companies that received
                  exceptional assistance under TARP. The regime he envisioned was a replacement
                  of guaranteed compensation with performance-based compensation designed to
                  tie the individual executive’s financial opportunities to the long-term overall
                  financial success of each company. He also envisioned that short-term profits
                  would give way to longer-term financial stability and success. He told Congress
                  that he hoped that his individual compensation determinations would be used, in
                  whole or in part, by other companies in modifying their own compensation
                  practices. He testified that he believed that his determinations were a useful
                  model to guide others.

                  Chrysler, Citigroup, and Ally executives said they would not fully follow
                  the Special Master’s determination framework after they exited TARP.
                  Chrysler executives told SIGTARP that the company executives’
                  mentality was, “Let’s get through this.” The executives also said that the
                  firm’s cash compensation was not competitive and the company would be
                  unable to retain employees at its current compensation levels.

                  Citigroup’s then-Vice Chairman Edward J. Kelly, III, told SIGTARP that
                  there were important principles that emerged from OSM’s determinations,
                  and that the company would maintain items such as clawbacks, deferred
                  compensation, and performance tests. But the executive also said that
                  company executives were less certain whether the company would use
                  stock salary as a form of deferred compensation. Ally CEO Carpenter
                  said he agreed with paying for long-term performance, but that certain
                  clawbacks are not realistic.




12-001                                                                                   January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                              43




                  Bank of America CEO Brian T. Moynihan told SIGTARP that the company
                  enhanced compensation in early 2010 and assessed best practices of the industry.
                  He said the company did not necessarily follow the Special Master’s practices
                  after it exited TARP, but that some of OSM’s components were involved. He
                  said the company already had a robust compensation structure with clawbacks.
                  He also told SIGTARP the company did away with the Special Master’s $500,000
                  cash salary limit because it limited the company’s ability to attract and retain
                  qualified executives.

                  GM and AIG executives were much less nuanced in their dissents with OSM’s
                  framework: GM CEO Whitacre said that GM would not maintain any of the
                  Special Master’s practices once the company exits TARP. AIG CEO Benmosche
                  said the Special Master’s practices would have no lasting impact. He also said,
                  however, that pay and performance must be linked, and if the majority of income
                  is fixed, or guaranteed, then pay is not linked to performance.


                  Companies’ Ability To Recruit and Retain

                  OSM reported in its March 23, 2010, press release, which accompanied the
                  Special Master’s 2010 Top 25 determinations, that 84% of executives included in
                  the Special Master’s 2009 Top 25 determinations remained in the Top 25 for 2010
                  and were subject to the Special Master’s 2010 Top 25 determinations. While the
                  Special Master advertised this retention rate as a success, the rate itself has little
                  meaning because it reflects only five of the seven companies and does not account
                  for employees who departed companies before the 2009 determinations.

                  The Special Master commented that OSM had data to prove that 85% of the
                  individuals who had threatened to leave in 2009 stayed in 2010. OSM calculated
                  the retention rate by comparing the number of Top 25 employees who remained
                  employed by their companies from 2009 to 2010. The figure does not include
                  Bank of America and Citigroup, both of which repaid in 2009 and could not be
                  factored into the analysis.

                  OSM provided the data for Table 5 on the following page, which shows the
                  number of Top 25 employees who remained at the companies for both years.




12-001                                                                                      January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                 44




TABLE 5


RETENTION DATA

                                                  2009 Top 25
                      Top 25 Employees             Employees          Employees         Retention Rate
                        Subject to 2009           Departed by         Remaining              of Top 25
 Company                Determinations                   2010            in 2010           Employees
 AIG                          13                        5                   8                62%
 Chrysler                     25                        2                  23                92%
 Chrysler Financial           22                        5                  17                77%
 GM                           22                        2                  20                91%
 Ally                         22                        2                  20                91%

 Total                       104                       16                  88                85%


Source: Treasury.




                      While the Special Master publicized OSM’s retention rate as a success in keeping
                      executives in their seats, the numbers do not tell the whole story. A GM
                      executive told SIGTARP that the drama surrounding executive compensation –
                      with citizens protesting at the homes of executives from companies that received
                      Government assistance, such as AIG – is one reason that some people did not
                      apply for jobs at GM. He said that certain potential candidates for GM’s CFO
                      position did not interview with the firm because of the executive compensation
                      rules.

                      AIG’s CEO told SIGTARP: “You don’t always lose people, but you lose their
                      hearts and minds. Sometimes people just sit at their desks and watch it burn to
                      the ground because they don’t have a better job. Sometimes, people do go out the
                      door. … So maybe no one left, but if they are not creative in their thinking, we
                      will lose.” AIG’s then-Chairman of the Board even complained that OSM’s rules
                      made little sense and hurt the firm. In a February 2010 Chairman’s Message to
                      shareholders, he wrote: “While we can pay the vast majority of people
                      competitively, on occasion, [OSM’s] restrictions and [the Special Master’s]
                      decisions have yielded outcomes that make little business sense. For example, in
                      some cases, we are prevented from providing market competitive compensation to
                      retain some of our own most experienced and best executives. This hurts the
                      business and makes it harder to repay the taxpayers.”

                      Bank of America’s CEO told SIGTARP that the pay determinations were
                      shortsighted and that he was disappointed in the pay restrictions. He said that the
                      determinations were unfair to the executives, and that Bank of America would be
                      unable to keep talented and loyal personnel.



12-001                                                                                         January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                             45




                  Citigroup CEO Pandit told SIGTARP that “keeping the team together…was a big
                  deal for management.” He said that some employees in the top tiers of the firm
                  left Citigroup, and he acknowledged that executive compensation restrictions
                  might have been a contributing factor. Citigroup’s then-Vice Chairman Kelly told
                  SIGTARP that executive compensation was a barrier to hiring and retaining
                  qualified managers and well-known traders. A Citigroup official told SIGTARP
                  that out of Citigroup’s Top 25 employees, the company lost only a few
                  employees.


                  OSM’s Limited Effect on Citigroup and Bank of America

                  OSM’s decisions had a limited effect on the executive compensation practices of
                  Citigroup and Bank of America after they exited TARP. Both companies were
                  subject to the Special Master’s determinations from October 22, 2009, through
                  December 31, 2009. Citigroup officials told SIGTARP that from the beginning,
                  Citigroup’s perspective was that it would be subject only to the Special Master’s
                  determinations for 2009. Once the two banks exited the exceptional assistance
                  program TIP, and OSM’s regulations disappeared, salaries and bonuses climbed.
                  For example:

                     Under the Special Master in 2009, the annual stock salary for Citigroup’s
                      Top 25 employees ranged from $0 to approximately $5.7 million each.
                      However, as reported by COP, after exit, annual stock salary for Citigroup’s
                      named officers ranged from $4.2 million to $9 million each.

                     The Special Master approved for Citigroup’s Top 25 group in 2009
                      $39.5 million in long-term restricted stock. After exit, COP said that just the
                      top 15 executives received a combined $50 million in stock bonuses.

                     Long-term restricted stock under the Special Master totaled $19.3 million for
                      Bank of America’s Top 25. After exit, according to COP, just four of its
                      executive officers received long-term incentive awards totaling $35.7 million.
                      SIGTARP also found that one of those executives received a 70% salary
                      increase in two steps after Bank of America exited TARP, but within eight
                      months after his second raise, he left the firm under a realignment strategy that
                      “simplified” the management structure.




12-001                                                                                     January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                            46




                      Beyond TARP: Dodd-Frank Act’s Executive Compensation
                      Provisions

                      When SIGTARP asked Special Master Feinberg whether he believed that the
                      companies would adopt elements of OSM’s determinations when they are no
                      longer under OSM purview, he answered, “No.” He also said that the long-term
                      impact will likely come from the regulators or other authorities.

                      On July 21, 2010, Congress enacted the Dodd-Frank Wall Street Reform and
                      Consumer Protection Act (“Dodd-Frank Act”), which enhances disclosure and
                      reporting requirements and prohibits certain incentive-based payment
                      arrangements that regulators determine encourage inappropriate risks by covered
                      financial institutions. Specifically, the Dodd-Frank Act requires public
                      companies to disclose in public filings: (1) the median total annual compensation
                      of all employees other than the CEO; (2) the annual total compensation of the
                      CEO or equivalent position; and (3) the ratio between the median compensation
                      of all employees and the CEO’s total compensation. The Dodd-Frank Act also
                      requires that public companies make clear disclosures on executive compensation
                      to shareholders in materials for the annual meeting of shareholders, and non-
                      binding shareholder votes to approve executive compensation and certain golden
                      parachutes.

                      The Dodd-Frank Act’s provisions on executive compensation are to be
                      implemented in new regulations by several Federal regulators, and some of those
                      regulators have already implemented or proposed rules.44 The Dodd-Frank Act
                      requires that the new Federal regulations require certain financial institutions to
                      disclose the structures of all incentive-based compensation sufficient to determine
                      whether the compensation structure provides an executive officer, employee,
                      director, or principle shareholder with excessive compensation, fees, or benefits,
                      or could lead to material financial loss.45 Federal regulators are also required to
                      develop regulations that prohibit any type of incentive-based payment
                      arrangement that the regulators determine encourages inappropriate risk.




44
   The regulators required to promulgate regulations under this provision of Dodd-Frank include: Board of
   Governors of the Federal Reserve System, the Office of the Comptroller of the Currency, the Board of
   Directors of the Federal Deposit Insurance Corporation, the Director of the Office of Thrift Supervision
   (agency was abolished in October 2011), the National Credit Union Administration Board, the Securities and
   Exchange Commission, and the Federal Housing Finance Agency.
45
   Covered financial institutions include: Depository institutions or depository institution holding companies,
   broker-dealers, credit unions, investment advisors, the Federal National Mortgage Association, the Federal
   Home Loan Mortgage Corporation, and other financial institutions that the appropriate Federal regulators,
   jointly, by rule, determine should be treated as covered. However, the requirements do not apply to covered
   financial institutions with assets of less than $1 billion.


12-001                                                                                                     January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                     47




                        Conclusions and Recommendations
                        Treasury created OSM in June 2009 in a charged atmosphere after several major
                        TARP recipients paid billions in bonuses causing a public outrage that resonated
                        with the Administration and Congress. Calling the payment of the bonuses
                        “shameful,” the President on February 4, 2009, announced that the Government
                        would cap the cash salaries of top executives at companies that received
                        “exceptional assistance” under TARP at $500,000. For seven companies, the
                        amount and nature of their bailout were considered “exceptional.” They were
                        AIG, Bank of America, Citigroup, General Motors, Chrysler, Chrysler Financial,
                        and Ally. Congress also reacted to the bonuses by amending pending Recovery
                        Act legislation to further restrict compensation for top employees of TARP
                        recipients. The Recovery Act’s bonus restrictions did not apply to future awards
                        promised under employment contracts that existed prior to February 11, 2009. In
                        March 2009, after reports that AIG paid $168 million in employee retention
                        awards under pre-Recovery Act contracts, people picketed the homes of AIG
                        executives, and some employees were threatened. OSM was created in the
                        aftermath of this tumultuous time to rein in excessive compensation at TARP
                        companies. Kenneth Feinberg originally served as the Special Master.46
                        However, OSM’s authority was narrowly limited to setting pay for the Top 25
                        employees, and approving compensation structures for the Top 26-100, at the
                        seven exceptional assistance TARP companies. OSM’s work had little effect on
                        Citigroup and Bank of America, which quickly exited TARP, in part to avoid
                        OSM’s restrictions. AIG, GM, and Ally currently remain under OSM’s oversight,
                        and lessons learned could affect both how they are treated by OSM and how
                        taxpayers are protected in the event of a future crisis.

                        SIGTARP found that the Special Master could not effectively rein in excessive
                        compensation at the seven companies because he was under the constraint that his
                        most important goal was to get the companies to repay TARP. Although
                        generally he limited cash compensation and made some reductions in pay, the
                        Special Master still approved total compensation packages of cash and stock in
                        the millions. The Special Master was operating under inherently inconsistent
                        principles. Special Master Feinberg said that the companies pressured him to let
                        the companies pay executives enough to keep them from quitting, and that
                        Treasury officials pressured him to let the companies pay executives enough to
                        keep the companies competitive and on track to repay TARP funds. Feinberg
                        testified before Congress that “Congress felt that the single most important thing I
                        could do is get those seven companies to repay the taxpayer. … Secretary
                        Geithner made that clear. Congress made that clear. The Administration made


46
     Feinberg was succeeded by Patricia Geoghegan, who currently serves as Acting Special Master.


12-001                                                                                              January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                           48




                        that clear.” He also testified that the tension between reining in executive
                        compensation while allowing necessary compensation was a very difficult task.

                        Given OSM’s overriding goal, the seven companies had significant leverage over
                        OSM by proposing and negotiating for excessive pay packages based on historical
                        pay, warning Special Master Feinberg that if he didn’t provide competitive pay
                        packages, top officials would leave and go elsewhere.

                        In proposing high pay packages based on historical pay prior to their bailout, the
                        TARP companies failed to take into account the exceptional situation they had
                        gotten themselves into that necessitated taxpayer bailout. Rather than view their
                        compensation through the lens of partial Government ownership, the companies
                        argued that their proposed pay packages were necessary to retain or attract
                        employees who were crucial to the company paying back TARP. For example, in
                        2009, AIG proposed cash raises for several of its Top 25 employees and the
                        ability to sell stock salary immediately. Ally officials also pushed for high pay,
                        despite knowing that Feinberg was concerned that a majority of the company’s
                        Top 25 employees were part of the problem that resulted in Ally’s need for a
                        bailout. Ally CEO Michael Carpenter told SIGTARP, “We had an individual who
                        was making $1.5 million total compensation with $1 million in cash. Cutting this
                        person’s salary to $500,000 cash resulted in the person being cash poor. This
                        individual is in their early 40s, with two kids in private school, who is now
                        considered cash poor. … We were concerned that these people would not meet
                        their monthly expenses due to the reduction in cash.” In a few rare instances, the
                        companies took it upon themselves to limit pay. In 2010, Ally’s board told the
                        new CEO that he would be paid stock but no cash. Citigroup’s CEO told
                        Congress that he would only take $1 in cash salary.

                        Under conflicting principles and pressures, despite reducing some pay, the Special
                        Master approved multimillion-dollar compensation packages for many of the
                        Top 25 employees but tried to shift them away from large cash salaries and
                        toward stock. OSM approved pay packages worth $5 million or more over the
                        2009 to 2011 period for 49 individuals. In trying to keep the companies
                        competitive, the Special Master told SIGTARP that the “obvious” starting point
                        was to set total compensation at the 50th percentile for similarly situated
                        employees. The decision to use the 50th percentile appeared to be based on OSM
                        staff’s experience with setting executive compensation rather than on empirical
                        evidence. Attempting to keep employees’ “skin in the game,” OSM apportioned
                        total pay between cash and stock, using what Feinberg called a “prescription” that
                        cash salaries should not exceed $500,000, except for good cause.47 According to
                        OSM, in some instances it was appropriate to increase cash salary. Although
                        OSM developed general prescriptions, OSM did not have any established criteria

47
     OSM approval was not required for proposed annual compensation structures of no more than $500,000
     (apart from long-term restricted stock, as defined in the IFR) for employees in the Top 26-100.


12-001                                                                                                    January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                              49




                      for applying those prescriptions at the beginning of the process. Because there
                      were so many differences in the companies’ situations, companies pushed back on
                      the general prescriptions and OSM made many exceptions to the general
                      prescriptions on a case-by-case basis.

                      Some companies pushed back on OSM by claiming that their compensation
                      should be higher than the 50th percentile. The companies’ beliefs may relate to
                      what has been called the “Lake Wobegon Effect,” named after radio host Garrison
                      Keillor’s fictional hometown, where “all the children are above average.” OSM
                      officials told SIGTARP, “If they were better than the 50th percentile, they
                      wouldn’t be having discussions with OSM in the first place.” Although there is
                      debate over whether the 50th percentile is appropriate, SIGTARP was unable to
                      determine whether OSM consistently applied the 50th percentile criterion because
                      OSM did not maintain complete records of the market-based data it used.

                      SIGTARP found that although the Special Master created a prescription that cash
                      salaries should not exceed $500,000 except for good cause, companies proposed
                      that their employees be paid higher cash salaries, claiming that the employees
                      were critical to the company’s success. For 10 employees in 2009, and 22
                      employees in 2010 and 2011, GM, Chrysler Financial, Ally, and AIG convinced
                      OSM to approve cash salaries greater than $500,000 each.48 With the exception
                      of Bank of America’s retiring CEO, the Special Master approved cash salaries in
                      excess of $500,000 for the CEO of each company who asked for a higher salary
                      and approved millions of dollars in CEO stock compensation. SIGTARP also
                      found that OSM was inconsistent in approving cash salaries in excess of
                      $500,000. For at least GM and Ally, OSM picked a “ballpark number” of
                      employees who could be paid more than $500,000 in cash and left it to the
                      companies to choose those employees. According to GM officials, for some
                      employees, OSM adjusted salaries down to just under $500,000.

                      AIG’s proposed compensation for its Top 25 employees did not reflect in any way
                      the unprecedented nature of AIG’s taxpayer-funded bailout and the fact that
                      taxpayers owned a majority of the company. AIG’s proposed compensation was
                      excessive. In 2009, AIG wanted cash salary raises ranging from 20% to 129% for
                      one group of employees and from 84% to 550% for another group. AIG proposed
                      high cash salaries, even though all but two of the 13 employees49 in the Top 25
                      were scheduled to receive significant retention awards and other payments under
                      pre-Recovery Act contracts. AIG proposed pay comparable to Goldman Sachs,
                      JPMorgan, and Morgan Stanley.50 In 2010, AIG again proposed significant

48
   Not all four companies received approval for cash salaries greater than $500,000 each year.
49
   Often the “Top 25” in a company had fewer than 25 employees because some had left the company.
50
   AIG also proposed that heads of its business units be paid in the 50th to 75th percentile of pay for CEOs of
   other companies, which OSM rejected. SIGTARP was unable to test whether the 50th percentile was
   appropriately applied to AIG because of the lack of OSM documentation.


12-001                                                                                                       January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                           50




                         increases in cash salaries, and asked that nine employees be paid more than
                         $500,000 in cash, and that three employees receive cash raises of 100% to 140%
                         over the salaries approved by OSM in 2009.

                         Feinberg told SIGTARP that AIG was anti-stock salary and wanted to pay
                         employees in cash. Feinberg said that in his 2009 discussions with AIG, AIG
                         officials indicated that its common stock was essentially worthless. Feinberg told
                         COP that AIG common stock “wasn’t worth enough to appropriately compensate
                         top officials.” Feinberg told SIGTARP that OFS stressed that the stock salary and
                         grandfathered contracts would jeopardize AIG. Feinberg told SIGTARP that he
                         was pressured by other senior Treasury officials and was told to be careful, that
                         AIG owed a fortune, and that Treasury did not want it to go belly up.51 He further
                         stated that Treasury officials felt those amounts were relatively small compared to
                         the Government’s exposure in AIG. Despite these pressures, Feinberg said that
                         no one trumped his decisions.

                         CEO Benmosche explained to SIGTARP the reasoning for AIG’s decision not to
                         restructure the awards in 2009: “I got a message that Ken [Feinberg] had a desire
                         to take away retention payments. I had to make sure my people got paid. … I had
                         10 senior executives that lost $168 million in pay. We had people that were
                         completely wiped out when the stock fell. … The stock didn’t have any value to
                         the employees, as these people were getting stock that they couldn’t sell because
                         it was not vested. Ken Feinberg wanted to be able to tell Congress that no
                         retention payments would be paid. But the retention payments were the only way
                         to pay and keep people. They were not retention payments per se, but they were
                         bonuses that they would have normally got ... [AIG]FP was the primary cause, but
                         everybody lost. I told him you can’t cut salaries so much and put pensions in
                         long-term stock – people need something to live on ... We succeeded in keeping
                         all retention payments. The penalty was very low salaries.”

                         Senior Treasury officials helped AIG develop a “phantom” stock based on AIG’s
                         valuable subsidiaries. Although Treasury officials were involved to protect
                         taxpayers’ investment in AIG, AIG stood out as the only one of the seven
                         companies in which senior Treasury officials intervened in OSM’s process. It
                         appeared to be due to the sheer size of the Government’s investment and requests
                         by AIG’s CEO that the officials intervened. Feinberg approved the use of
                         phantom stock for stock salary as part of six employees’ pay packages in 2009,
                         citing the need for employee retention. Feinberg then agreed to AIG’s request to
                         use AIG common stock for stock salary. In 2010, AIG requested approval to use
                         something other than AIG common stock, proposing a hybrid security. In 2011,
                         AIG proposed using AIG common stock for pay, citing Treasury’s plans to


51
     For details regarding the Government’s investment in AIG and the firm’s recapitalization plan, see
     Appendix D.


12-001                                                                                                    January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                         51




                  restructure the Government’s investment in AIG from preferred stock to common
                  stock, and later sell the common stock in the market.

                  In 2009, OSM approved total compensation of cash and stock of more than
                  $1 million each for five AIG employees. This included the largest pay package
                  and cash salary ever approved by the Special Master ‒ a $10.5 million pay
                  package for AIG’s new CEO that included a $3 million cash salary. OSM
                  approved compensation ranging from $4.3 million to $7.1 million each for four
                  AIG employees who that year were also scheduled to receive cash retention
                  awards of up to $2.4 million. For the other eight AIG employees, OSM approved
                  pay packages that fell well under $1 million. OSM was tough on employees of
                  AIGFP, the unit whose losses contributed to the need for Government
                  intervention. For five AIGFP employees who were scheduled to receive retention
                  awards of up to approximately $4.7 million, OSM froze their salaries at 2007
                  levels and gave them no stock.

                  In 2010, OSM also cut AIG’s proposed salaries, but compared to 2009, approved
                  much larger compensation packages for AIG’s Top 25 employees, despite the fact
                  that 18 of these employees were scheduled to receive retention awards and other
                  payments under pre-Recovery Act contracts. In 2010, OSM approved 21 of
                  AIG’s 22 employees to receive between $1 million and $7.6 million, with 17 of
                  those pay packages exceeding $3 million. OSM also approved $10.5 million in
                  compensation for CEO Benmosche. OSM approved cash salaries over $500,000
                  for five employees, and cash salaries ranging from $442,874 to $500,000 for 12
                  employees. OSM approved all but three of AIG’s Top 25 employees to receive
                  stock salary ranging from $1.3 million to $5.1 million each. Although OSM still
                  froze salaries for AIGFP employees at 2007 levels, OSM approved four AIGFP
                  employees to be paid more than $3 million in stock salary, and two AIGFP
                  employees to receive $758,067 and $1.3 million in stock salary. OSM generally
                  approved these same pay packages for 2011 for AIG, which included the CEO’s
                  same compensation as in earlier years, compensation packages of $8 million each
                  for two employees, compensation packages of $7 million each for two employees,
                  and compensation packages of $5 million to $6.3 million each for seven
                  employees.

                  OSM’s pay determinations are not likely to have long lasting impact at the seven
                  TARP exceptional assistance companies or other companies. OSM’s jurisdiction
                  is fleeting, disappearing once the firm is no longer a recipient of exceptional
                  assistance under TARP. It is already clear that OSM’s decisions on compensation
                  had little effect on two of the nation’s largest banks. After being subject to
                  OSM’s review from October 22, 2009, to December 31, 2009, Citigroup and
                  Bank of America exited TARP, in part to escape OSM’s compensation
                  restrictions. Once out of TARP, salaries and bonuses climbed. According to a
                  report by COP, Citigroup paid its named officers annual stock salary ranging from



12-001                                                                                 January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                             52




                  $4.2 million to $9 million each and the top 15 executives received a total of
                  $50 million in stock bonuses. Bank of America discarded the $500,000 cash
                  salary cap and increased the cash salary of its CEO and other executives. Bank of
                  America paid four of its executive officers a total of $35.7 million in long-term
                  incentive awards.

                  Despite once hoping to change the compensation regime at the seven companies
                  and have his determinations serve as a useful model for other companies,
                  Feinberg told SIGTARP that he did not expect that the seven companies would
                  adopt elements of OSM’s compensation determinations when they are no longer
                  under TARP. Today, only AIG, GM, and Ally remain subject to OSM’s review.
                  CEOs at AIG and GM told SIGTARP that they would not maintain OSM’s
                  practices once their company exits TARP. OSM has had little ability to influence
                  compensation practices at other companies outside of the seven. Feinberg told
                  SIGTARP that the long-term impact will likely come from regulators.

                  While historically the Government has not been involved in pay decisions at
                  private companies, one lesson of this financial crisis is that regulators should take
                  an active role in monitoring and regulating factors that could contribute to another
                  financial crisis. Treasury Secretary Timothy F. Geithner testified before COP that
                  executive compensation played a material role in causing the crisis because it
                  encouraged excessive risk taking.

                  As a nation, we are not out of the woods because many former TARP companies
                  remain as systemically important financial institutions (“SIFIs”). These
                  companies have a responsibility to reduce risk taking that could trigger systemic
                  consequences, including excessive cash compensation and other compensation
                  not tied to long-term performance. The Dodd-Frank Act requires regulations on
                  executive compensation and other regulations for SIFIs. These regulations may
                  force these companies to change their compensation practices, but the regulations
                  required under the Dodd-Frank Act are not final, and their effectiveness remains
                  to be seen. For institutions that exited TARP, the responsibility for reforming
                  compensation practices falls on the companies and their regulators. The
                  regulators’ strength and leadership in the area of executive compensation are
                  crucial. Taxpayers are looking to the regulators to protect them so that history
                  does not repeat itself.




12-001                                                                                     January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                           53




                  Recommendations
                  1. To ensure that the Office of the Special Master for TARP Executive
                     Compensation consistently grants exceptions to the $500,000 cash salary cap,
                     the Office of the Special Master should substantiate each exception requested
                     and whether the requests demonstrate or fail to demonstrate “good cause.”

                  2. The Office of the Special Master should better document its use of market
                     data in its calculations. At a minimum, the Office of the Special Master
                     should prospectively document which companies and employees are used as
                     comparisons in its analysis of the 50th percentile of the market, and it should
                     also maintain records and data so that the relationship between its
                     determinations and benchmarks are clearly understood.

                  3. The Office of the Special Master should develop more robust policies,
                     procedures, or guidelines to help ensure that its pay determination process and
                     its decisions are evenhanded. These measures will improve transparency and
                     help the Office of the Special Master consistently apply the Interim Final Rule
                     principles of “appropriate allocation,” “performance-based compensation,”
                     and “comparable structures and payments.”




12-001                                                                                    January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                             54




                  Management Comments
                  Treasury through the Office of the Special Master for TARP Executive
                  Compensation provided an official written response to this report in a
                  letter dated January 20, 2012, which is reproduced in full in Appendix G.
                  OSM’s letter states that SIGTARP’s report “provides a useful and detailed
                  historical review of OSM’s efforts.” OSM states it is succeeding in
                  achieving its mission and restates comments previously made public in
                  OSM releases.

                  OSM agreed with SIGTARP’s first two recommendations and said that it
                  will memorialize in its records its justification for approving or
                  disapproving each specific request for a cash salary in excess of $500,000,
                  and that it already has begun to preserve the market data on which it relies.
                  As to SIGTARP’s third recommendation, OSM asserted that SIGTARP’s
                  report insufficiently acknowledges the policies, procedures, and guidelines
                  that OSM developed and outlined in its Top 25 determination letters and
                  accompanying fact sheets for each of 2009, 2010, and 2011. OSM stated
                  that it “will carefully focus on how it can further develop and articulate its
                  policies, procedures, and guidelines.”

                  SIGTARP’s report explicitly acknowledges those documents, by stating
                  “OSM’s methodology and criteria were explained in several different
                  documents ‒ the institution-specific determination letters, a ‘fact sheet’
                  summarizing some key steps and decisions, and a three-page document
                  issued several months later ‒ but the documents do not completely lay out
                  OSM’s process, methodology, and criteria.” Each of these documents
                  must be pieced together to determine OSM’s methodology, and even then
                  the documents do not completely set forth OSM’s process, methodology,
                  and criteria. For example, it is not clear in any of those documents how
                  OSM determines a similarly situated company. Those documents also do
                  not address OSM’s criteria for approving cash salaries over $500,000.
                  Clear policies, procedures, and guidelines that set forth the rationale for
                  OSM’s decision making promote consistency and accountability, and are
                  necessary in order to permit effective oversight.

                  OSM’s letter response makes three statements with which SIGTARP
                  strongly disagrees: (1) the report fails to highlight the use of stock-based
                  compensation; (2) the report mischaracterizes OSM’s $500,000 guideline
                  on cash salaries; and (3) the report incorrectly describes OSM’s decisions
                  with respect to stock salary at AIG and other companies.




12-001                                                                                      January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                           55




                  First, in many instances, the report states that OSM used stock-based
                  compensation. The report states that OSM tried to shift compensation
                  packages “away from large cash salaries and toward stock.” The report
                  describes OSM’s three-step methodology, stating, “To tie individual
                  compensation to long-term company success, OSM used long-term
                  restricted stock contingent on the employee achieving specific
                  performance criteria.” OSM’s specific determinations that included stock-
                  based compensation are described in detail in the report.

                  Second, the report does not mischaracterize OSM’s $500,000 guideline on
                  cash salaries. According to its letter response, OSM claims a
                  mischaracterization on the basis that “the $500,000 target was a
                  discretionary guideline that OSM adopted, not a provision of any statute or
                  regulation.” However, this statement is not contrary to anything in the
                  report. Further, OSM stated in its response, “When companies requested
                  executives be paid cash salaries above $500,000, OSM required
                  justifications for each individual case, and, without exception, made the
                  final decision on the amount of each element of compensation after a
                  detailed review and analysis.”

                  The report does not mischaracterize the $500,000 figure by stating that it
                  was a provision of a statute or regulation or that it was not in OSM’s
                  discretion. The report explicitly states on page 1, “The economic stimulus
                  legislation did not contain a $500,000 limitation, nor did the Treasury
                  rules.” The report states that OSM developed what Special Master
                  Feinberg called a “prescription,” explicitly stating, “OSM set cash salaries
                  using an OSM prescription that generally salaries should not exceed
                  $500,000 per year, except for good cause shown.” The report states, “The
                  decision to limit cash salaries to $500,000 and to increase the proportion
                  of compensation in the form of stock, Feinberg said, was his decision to
                  strike a balance between reducing excessive risk and providing enough
                  compensation to keep employees’ ‘skin in the game.’” The report also
                  states, “Special Master Feinberg told SIGTARP that he applied criteria
                  with a ‘healthy dose of discretion’ for company-specific circumstances.”

                  The report also does not mischaracterize OSM’s decision making on cash
                  salaries over $500,000. The report states, “The Special Master told
                  SIGTARP that it was always his decision to approve cash salaries of more
                  than $500,000, based on names, circumstances, and empirical data.”
                  However, as stated in the report, “Ally executives told SIGTARP that
                  OSM gave them a ‘ballpark number’ of two to four employees who could
                  be paid more than $500,000 in cash salary and that the CEO selected the
                  employees.” This process is also borne out in internal OSM e-mails.
                  In one email noted in the report, Special Master Feinberg questioned OSM



12-001                                                                                    January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                           56




                  staff: “Can we (should we?) permit GM to go above $500,000 with a
                  few? … Which ones? Or should I just get to her and tell her we can’t do
                  it?” As stated in the report, “OSM responded to the Special Master: ‘With
                  respect to GM, we told them a maximum of five above $500K and four at
                  $500K. We left it to them to decide which individuals would be taken
                  down to comply with those restrictions.’” To the extent that OSM
                  engaged in detailed analysis and review of these individuals picked by the
                  companies, the report found a lack of documentation supporting why
                  OSM approved the salary. There was a lack of detail in the justification,
                  with several of OSM’s justifications listed as “No Change” and “Critical
                  to Turnaround.” OSM has agreed to remedy these findings by agreeing to
                  SIGTARP’s first recommendation.

                  Third, contrary to OSM’s assertions, the report correctly describes OSM’s
                  decisions with respect to stock salary at AIG and the other companies.
                  According to its letter, OSM’s basis for that assertion was that OSM “did
                  not dictate the form that the stock salary would take.” OSM also states in
                  its response that five of six companies proposed using common stock as
                  part of the compensation packages, that AIG “proposed different
                  structures of AIG stock salary,” that “all of these structures complied with
                  Treasury’s rule,” and that “ultimately the company used a hybrid stock
                  salary structure only for 2010.” These statements are not contrary to any
                  statement in the report. The report does not say that OSM dictated the
                  form that the stock salary would take, or that the salary structures did not
                  comply with Treasury’s rule. The report brings transparency to the fact
                  that it was AIG and other Treasury officials who came up with the form of
                  AIG stock salary, not Special Master Feinberg. For example, the report
                  notes that Jim Millstein, Treasury’s then-head of restructuring for AIG,
                  told SIGTARP that he helped develop a “phantom stock,” which did not
                  exist, for purposes of stock-based compensation, even though AIG had
                  common stock. The report does not find that the phantom stock was
                  contrary to any Treasury rule, but rather refers to the phantom stock as a
                  “different form of stock salary,” the very description OSM gave in their
                  response to this evaluation. Although the report makes it clear that
                  ultimately the company only used a hybrid stock salary for 2010, it also
                  discusses that OSM initially approved the phantom stock salary for six
                  AIG executives in a written letter of October 22, 2009, that OSM
                  published. In a December 21, 2009, supplemental determination letter to
                  AIG, the Special Master granted AIG’s new request to pay the employees
                  with AIG common stock.




12-001                                                                                    January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                            57




Appendix A – Scope and Methodology
We performed this evaluation under the authority of Public Law 110-343, as amended, which also
incorporates the duties and responsibilities of inspectors general under the Inspector General Act of
1978, as amended. SIGTARP reviewed the Special Master’s decisions on executive compensation
at companies receiving exceptional financial assistance from the U.S. Government. Pursuant to the
June 2009 Interim Final Rule, the Special Master must review proposed compensation structures and
payments for senior executive officers and the 20 next most highly compensated employees. Our
specific reporting objectives were to assess the criteria used by the Office of the Special Master for
TARP Executive Compensation (“OSM”) to evaluate executive compensation, and assess whether
the criteria were consistently applied to all companies that received exceptional assistance. We
performed work at SIGTARP in Washington, D.C. We also conducted field interviews with current
and former Government officials and executives from companies that received exceptional financial
assistance, in Washington, D.C., Florida, North Carolina, Michigan, and New York. SIGTARP
conducted this evaluation between November 2009 and December 2011. The scope of this
evaluation covered the Special Master’s Top 25 determination process for 2009, 2010, and 2011.

To assess the criteria used by OSM to evaluate executive compensation, we reviewed the Emergency
Economic Stabilization Act of 2008, the American Recovery and Reinvestment Act of 2009, and
Treasury’s Interim Final Rule. SIGTARP also reviewed testimony of the Special Master to identify
other key rules that the Special Master used in the compensation determination process. Through
interviews with the Special Master and OSM staff, and executives of companies that received
exceptional financial assistance, SIGTARP documented the Special Master’s Top 25 determination
process and evaluated how the criteria were used by OSM. We also requested OSM’s policies and
procedures to determine the extent to which policies and procedures existed and to evaluate
sufficiency.

To assess whether the criteria were consistently applied to all companies that received exceptional
financial assistance, SIGTARP analyzed how OSM applied three key prescriptions: to limit cash
salaries that employees would receive to $500,000, unless OSM had good cause for providing
employees cash salaries that went above this limit; to ensure OSM tied non-cash compensation to
performance and delivered other compensation in stock; and to limit employees’ total direct
compensation to not more than the median level of total compensation for employees in similar
companies who have similar jobs. SIGTARP also reviewed OSM’s 2009, 2010, and 2011
determination letters and analyzed compensation data on a company-by-company basis. SIGTARP,
through interviews with company executives, also evaluated the impact determinations had on the
companies, whether the executive compensation restrictions affected company executives’ decisions
to repay Government assistance, and whether OSM’s framework would elicit lasting change in
compensation practices of the companies that were under OSM’s jurisdiction, and have since exited
TARP.

SIGTARP conducted this evaluation in accordance with the “Quality Standards for
Inspection and Evaluation” established by the Council of the Inspectors General on Integrity


12-001                                                                                    January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                            58




and Efficiency. Those standards require that SIGTARP plan and perform the evaluation to
obtain evidence sufficient to provide a reasonable basis for findings and conclusions based
on the evaluation objectives. SIGTARP believes that the evidence obtained provides a
reasonable basis for the findings and conclusions based on the evaluation objectives.

Limitations on Data
SIGTARP relied upon Treasury to identify and provide email communication or documents related
to the compensation determination process. It is possible that the documentation provided by
Treasury did not reflect a comprehensive response to SIGTARP’s documentation requests,
potentially limiting SIGTARP’s review.

Use of Computer-Processed Data
SIGTARP did not use computer-processed data during this evaluation. SIGTARP obtained data
from determination letters that are available to the public on Treasury’s website.

Internal Controls
To assess internal controls over OSM’s determination process, SIGTARP interviewed OSM staff.
SIGTARP also requested OSM’s policies and procedures and reviewed the documentation to
determine the extent to which policies and procedures existed, and whether internal controls were
reasonable and effective.

Prior Coverage
On August 19, 2009, SIGTARP issued audit report 09-003, “Despite Evolving Rules on Executive
Compensation, SIGTARP Survey Provides Insights on Compliance.” This report addresses the
efforts of TARP recipients to comply with executive compensation restrictions and plans to comply
with subsequently enacted changes in requirements. On October 14, 2009, SIGTARP issued audit
report 10-002, “Extent of Federal Agencies’ Oversight of AIG Compensation Varied, and Important
Challenges Remain.” This report addresses the extent of knowledge and oversight by Federal
Reserve and Treasury officials over AIG compensation programs and, specifically, retention
payments to the AIG Financial Products (“AIGFP”) unit. The report also addresses the extent to
which executive compensation restrictions or preexisting contractual obligations governed AIGFP
retention payments, and the outstanding AIG compensation issues requiring resolution, and
Government actions to address them.




12-001                                                                                   January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                           59




Appendix B – Principles of Treasury’s June 2009 IFR
Principle               Definition
Risk                    The compensation structure should avoid incentives to take unnecessary or
                        excessive risks that could threaten the value of the TARP recipient,
                        including incentives that reward employees for short-term or temporary
                        increases in value, performance, or similar measure that may not ultimately
                        be reflected by an increase in the long-term value of the TARP recipient.
                        Accordingly, incentive payments or similar rewards should be structured to
                        be paid over a time horizon that takes into account the risk horizon so that
                        the payment or reward reflects whether the employee’s performance over
                        the particular service period has actually contributed to the long-term value
                        of the TARP recipient.
Taxpayer                The compensation structure, and amount payable where applicable,
Return                  should reflect the need for the TARP recipient to remain a
                        competitive enterprise, to retain and recruit talented employees who
                        will contribute to the TARP recipient’s future success, and
                        ultimately to be able to repay TARP obligations.
Appropriate             The compensation structure should appropriately allocate the
Allocation              components of compensation such as salary, short-term and long-
                        term incentives, as well as the extent to which compensation is
                        provided in cash, equity, or other types of compensation such as
                        executive pensions, other benefits, or perquisites, based on the
                        specific role of the employee and other relevant circumstances,
                        including the nature and amount of current compensation, deferred
                        compensation, or other compensation and benefits previously paid
                        or awarded. The appropriate allocation may be different for
                        different positions and for different employees, but generally, in the
                        case of an executive or other senior-level position, a significant
                        portion of the overall compensation should be long-term
                        compensation that aligns the interest of the employee with the
                        interests of shareholders and taxpayers.
Performance-            An appropriate portion of the compensation should be performance
Based                   based over a relevant performance period. Performance-based
Compensation            compensation should be determined through tailored metrics that
                        encompass individual performance and/or the performance of the
                        TARP recipient or a relevant business unit, taking into
                        consideration specific business objectives. Performance metrics
                        may relate to employee compliance with relevant corporate policies.
                        In addition, the likelihood of meeting the performance metrics
                        should not be so great that the arrangement fails to provide an
                        adequate incentive for the employee to perform, and performance


12-001                                                                                    January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                            60




                        metrics should be measurable, enforceable, and actually enforced if
                        not met. The appropriate allocation and the appropriate performance
                        metrics may be different for different positions and for different
                        employees, but generally a significant portion of total compensation
                        should be performance-based compensation, and generally that
                        portion should be greater for positions that exercise higher levels of
                        responsibility.
Comparable              The compensation structure, and amount payable where applicable,
Structures              should be consistent with, and not excessive, taking into account
and Payments            compensation structures, and amounts for persons in similar
                        positions or roles at similar entities that are similarly situated,
                        including, as applicable, entities competing in the same markets and
                        similarly situated entities that are financially distressed or that are
                        contemplating or undergoing reorganization.
Employee                The compensation structure, and amount payable where applicable,
Contribution            should reflect the current or prospective contributions of an
to TARP                 employee to the value of the TARP recipient, taking into account
Recipient               multiple factors such as revenue production, specific expertise,
Value                   compliance with company policy and regulation (including risk
                        management), and corporate leadership, as well as the role the
                        employee may have had with respect to any change in the financial
                        health or competitive position of the TARP recipient.




12-001                                                                                     January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                               61




Appendix C – TARP Expenditures to Seven Companies
That Received Exceptional Assistance

 TARP EXPENDITURES TO THE SEVEN COMPANIES
                                                       Investment                          Description of Initial
 Institution                                              Program          Expenditure             Expenditure
                                               Systemically Significant                     Preferred stock with
 American International Group                                              $67.8 billion
                                                    Failing Institutions                               warrants
                                                      Capital Purchase                      Preferred stock with
                                                                             $25 billion
                                                               Program                                 warrants
 Bank of America
                                                  Targeted Investment                       Preferred stock with
                                                                             $20 billion
                                                             Program                                   warrants
                                                      Capital Purchase                      Preferred stock with
                                                                             $25 billion
                                                               Program                                 warrants
 Citigroup                                                                                       Trust preferred
                                                  Targeted Investment
                                                                             $20 billion          securities with
                                                             Program
                                                                                                       warrants
                                                   Automotive Industry                      Debt obligation with
                                                                           $49.5 billion
                                                    Financing Program                           additional note
                                                         Auto Warranty
                                                                                            Debt obligation with
 General Motors                                           Commitment        $0.4 billion
                                                                                                additional note
                                                              Program
                                               Auto Suppliers Support                       Debt obligation with
                                                                            $0.3 billion
                                                             Program                            additional note
                                                                                            Debt obligation with
                                                   Automotive Industry                          additional note,
                                                                           $12.5 billion
                                                    Financing Program                        zero coupon note,
                                                                                                     and equity
 Chrysler                                                Auto Warranty
                                                                                            Debt obligation with
                                                          Commitment        $0.3 billion
                                                                                                additional note
                                                              Program
                                               Auto Suppliers Support                       Debt obligation with
                                                                            $0.1 billion
                                                             Program                            additional note
                                                                                           Convertible preferred
                                                                                                stock, preferred
                                                                                                stock, and trust
                                                   Automotive Industry
 Ally Financial (formerly GMAC)                                            $17.2 billion    preferred securities
                                                    Financing Program
                                                                                                 with exercised
                                                                                             warrants, and debt
                                                                                                      obligation
                                                   Automotive Industry                      Debt obligation with
 Chrysler Financial                                                         $1.5 billion
                                                    Financing Program                           additional note




 Source: SIGTARP’s Quarterly Report to Congress, October 27, 2011.




12-001                                                                                                        January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                                            62




Appendix D – AIG’s Government Assistance and
Recapitalization Plan To Exit TARP
AIG received Government assistance through Treasury’s Systemically Significant Failing
Institutions Program and from the Federal Reserve Bank of New York (“FRBNY”), as follows:

      On November 25, 2008, Treasury made an initial $40 billion investment in AIG with the
       purchase of preferred stock and warrants, and on April 17, 2009, Treasury committed to fund an
       equity capital facility under which AIG could draw down up to $29.8 billion52 in exchange for
       additional preferred stock and additional warrants.

      In September 2008, FRBNY extended an $85 billion revolving credit facility to AIG (later
       changed to $60 billion) and later lent $43.8 billion to two special purpose vehicles (“SPVs”)53
       established to purchase mortgage-backed securities and collateralized debt obligations.

      On March 2, 2009, Treasury and the Federal Reserve announced a restructuring of Government
       assistance to AIG that was designed to strengthen the company’s capital position. The measures
       included an authorization for FRBNY to acquire up to $26 billion of preferred equity interests in
       two SPVs formed to hold American International Assurance Co., Ltd. (“AIA”) and American
       Life Insurance Company (“ALICO”), two of AIG’s largest foreign life insurance subsidiaries.

      On December 1, 2009, FRBNY received $16 billion in preferred equity interests in the AIA SPV
       and $9 billion in the ALICO SPV.

      On December 8, 2010, AIG announced it signed a Master Transaction Agreement regarding a
       series of integrated transactions to recapitalize AIG.

      On January 14, 2011, AIG completed the series of integrated transactions contemplated under
       the Master Transaction Agreement to recapitalize AIG with FRBNY and Treasury, including the
       repayment and termination of FRBNY revolving credit facility, the repurchase and exchange of
       the SPV preferred equity interests, and the exchange of the series of preferred stock held by
       Treasury for a new series of preferred stock, Series G, with a related $2 billion drawdown right,
       and AIG common stock.

      On May 27, 2011, AIG and Treasury completed the registered public offering of 100 million and
       200 million shares of AIG common stock, respectively, at $29 per share, and the Series G
       preferred stock and related drawdown right were canceled. As a result of the offering, the

52
     $2 billion was canceled for a total of $27.8 billion in expenditures.
53
     FRBNY created Maiden Lane II, an SPV to which FRBNY lent $19.5 billion to fund the purchase of
     residential mortgage-backed securities from several AIG subsidiaries. FRBNY created Maiden Lane III, an
     SPV to which FRBNY lent $24.3 billion to buy from AIG’s counterparties collateralized debt obligations that
     underlie credit default swap contracts written by AIG.


12-001                                                                                                     January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                    63




   ownership interest of Treasury was reduced from approximately 92.2% to approximately 76.7%
   of AIG common stock.




12-001                                                                             January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                             64




Appendix E – Acronyms and Abbreviations
Acronym/Abbreviation         Definition

AIA                          American International Assurance Co., Ltd.
AIG                          American International Group, Inc.
AIGFP                        AIG Financial Products unit
ALICO                        American Life Insurance Company
Ally                         Ally Financial Inc., formerly GMAC, Inc.
Bank of America              Bank of America Corporation
CEO                          chief executive officer
CFO                          chief financial officer
Chrysler                     Chrysler Holding LLC
Chrysler Financial           Chrysler Financial Services Americas LLC
Citigroup                    Citigroup Inc.
COP                          Congressional Oversight Panel
Dodd-Frank Act               Dodd-Frank Wall Street Reform and Consumer Protection Act
EESA                         Emergency Economic Stabilization Act of 2008
FRBNY                        Federal Reserve Bank of New York
GM                           General Motors Corporation
IFR                          Interim Final Rule
OFS                          Office of Financial Stability
OSM                          Office of the Special Master for TARP Executive Compensation
Recovery Act                 American Recovery and Reinvestment Act of 2009
SEOs                         senior executive officers
SIFIs                        systemically important financial institutions
SIGTARP                      Office of the Special Inspector General for the Troubled Asset Relief
                             Program
SPV                          special purpose vehicles
TARP                         Troubled Asset Relief Program
TIP                          Targeted Investment Program
USC                          University of Southern California




12-001                                                                                  January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                                              65




Appendix F – Evaluation Team Members
This evaluation was conducted and the report was prepared under the direction of Kurt Hyde,
Deputy Inspector General for Audit and Evaluation, and Kimberley A. Caprio, Assistant Deputy
Special Inspector General for Audit and Evaluation, Office of the Special Inspector General for the
Troubled Asset Relief Program.

Staff members who conducted the evaluation and contributed to the report include Craig Meklir,
Clayton W. Boyce, Michelle Mang, Meredith McDaniel, Daniel Ben-Zadok, and Vonda Batts.




12-001                                                                                   January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                  66




Appendix G – Agency Comments




12-001                                                           January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                  67




12-001                                                           January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                  68




12-001                                                           January 23, 2012
THE SPECIAL MASTER’S DETERMINATIONS FOR EXECUTIVE COMPENSATION
OF COMPANIES RECEIVING EXCEPTIONAL ASSISTANCE UNDER TARP                  69




12-001                                                           January 23, 2012
SIGTARP Hotline
If you are aware of fraud, waste, abuse, mismanagement, or misrepresentations associated with the
Troubled Asset Relief Program, please contact the SIGTARP Hotline.

By Online Form: www.SIGTARP.gov
   U           U   U                     U                         By Phone: Call toll free: (877) SIG-2009

By Fax: (202) 622-4559

By Mail:                  Hotline: Office of the Special Inspector General
                          for the Troubled Asset Relief Program
                          1801 L Street., NW, 3rd Floor
                          Washington, D.C. 20220


Press Inquiries
If you have any inquiries, please contact our Press Office:
                                                                   Troy Gravitt
                                                                   Acting Director of Communications
                                                                   Troy.Gravitt@treasury.gov
                                                                   202-927-8940

Legislative Affairs
For Congressional inquiries, please contact our Legislative Affairs Office:
                                                                     Joseph Cwiklinski
                                                                     Director of Legislative Affairs
                                                                     Joseph.Cwiklinski@treasury.gov
                                                                     202-927-9159

Obtaining Copies of Testimony and Reports
To obtain copies of testimony and reports, please log on to our website at www.SIGTARP.gov. 
                                                                          U                    U




12-001                                                                                                 January 23, 2012
